<html>
<title> - ERADICATING STEROID USE, PART IV: EXAMINING THE USE OF STEROIDS BY YOUNG WOMEN TO ENHANCE ATHLETIC PERFORMANCE AND BODY IMAGE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
  ERADICATING STEROID USE, PART IV: EXAMINING THE USE OF STEROIDS BY 
       YOUNG WOMEN TO ENHANCE ATHLETIC PERFORMANCE AND BODY IMAGE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 15, 2005

                               __________

                           Serial No. 109-38

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform







                 U.S. GOVERNMENT PRINTING OFFICE

22-241                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001












                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 15, 2005....................................     1
Statement of:
    Elliot, Dr. Diane, professor of medicine, Oregon Health and 
      Science University; Dr. Todd Schlifstein, clinical 
      instructor, New York University School of Medicine; Dr. 
      Harrison Pope, professor of psychiatry, McLean Hospital, 
      Belmont, MA; Dr. Charles Yesalis, professor of health 
      policy and administration, the Pennsylvania State 
      University; and Dr. Avery Faigenbaum, professor of health 
      and exercise science, the College of New Jersey............    48
        Elliot, Dr. Diane........................................    48
        Faigenbaum, Dr. Avery....................................   107
        Pope, Dr. Harrison.......................................    83
        Schlifstein, Dr. Todd....................................    56
        Yesalis, Dr. Charles.....................................   101
    White, Kelli, former World Champion sprinter; and Mari 
      Holden, Olympian and World Champion cyclist................    20
        Holden, Mari.............................................    28
        White, Kelli.............................................    20
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    15
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Elliot, Dr. Diane, professor of medicine, Oregon Health and 
      Science University, prepared statement of..................    51
    Faigenbaum, Dr. Avery, professor of health and exercise 
      science, the College of New Jersey, prepared statement of..   109
    Holden, Mari, Olympian and World Champion cyclist, prepared 
      statement of...............................................    31
    Pope, Dr. Harrison, professor of psychiatry, McLean Hospital, 
      Belmont, MA, prepared statement of.........................    86
    Porter, Jon C., a Representative in Congress from the State 
      of Nevada, prepared statement of...........................   127
    Schlifstein, Dr. Todd, clinical instructor, New York 
      University School of Medicine, prepared statement of.......    59
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     8
    White, Kelli, former World Champion sprinter, prepared 
      statement of...............................................    23
    Yesalis, Dr. Charles, professor of health policy and 
      administration, the Pennsylvania State University, prepared 
      statement of...............................................   103























  ERADICATING STEROID USE, PART IV: EXAMINING THE USE OF STEROIDS BY 
       YOUNG WOMEN TO ENHANCE ATHLETIC PERFORMANCE AND BODY IMAGE

                              ----------                              


                        WEDNESDAY, JUNE 15, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Tom Davis (chairman 
of the committee) presiding.
    Present: Representatives Davis of Virginia, Shays, 
Gutknecht, Duncan, Porter, Dent, Waxman, Maloney, Cummings, 
Kucinich, Davis of Illinois, Clay, Watson, Lynch, 
Ruppersberger, Higgins, and Norton.
    Staff present: Melissa Wojciak, staff director; David 
Marin, deputy staff director/communications director; Jennifer 
Safavian, chief counsel for oversight and investigations; Howie 
Denis and Anne Marie Turner, counsels; Rob White, press 
secretary; Drew Crockett, deputy director of communications; 
Susie Schulte, professional staff member; Teresa Austin, chief 
clerk; Sarah D'Orsie, deputy clerk; Kristina Sherry, 
legislative correspondent; Corinne Zaccagnini, chief 
information officer; Leneal Scott, computer systems manager; 
Phil Schiliro, minority chief of staff; Kristin Amerling, 
minority general counsel; Karen Lightfoot, minority 
communications director/senior policy advisor; Brian Cohen, 
minority senior investigator and policy advisor; Early Green, 
minority chief clerk; and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. The committee will come to order. Good 
morning and welcome to today's hearing on the use of steroids 
by young women to enhance athletic performance and body image.
    This is the fourth hearing the committee has had on the use 
of steroids, a public health crisis, that reaches from the 
highest levels of professional sports down to ball fields and 
school yards across the country.
    Throughout our inquiry, we have sounded a familiar theme: 
The culture of steroid use among professional athletes, while 
troubling by itself, is also worrisome in its trickle-down 
effect. In the absence of strong testing regimes, pro athletes 
use performance-enhancing drugs to stay ahead of the 
competition. College athletes feel pressure to use steroids to 
get drafted. High school kids believe steroids are the ticket 
to bigger, faster bodies that will attract the attention of 
scouts and college coaches, and maybe lead to a scholarship.
    And the cycle goes on and on. These pressure are real and 
they sometimes have tragic consequences, as we have heard from 
the Hooten and Garibaldi families during the first hearing. 
Their sons killed themselves after slipping into depression 
that their families believe was fueled by anabolic steroids.
    Today we fix our gaze on a disturbing piece of the steroid 
puzzle. Studies have shown that growing numbers of young girls 
are beginning to use steroids. Some of this use is attributed 
to the desire to improve athletic performance, but some is 
because girls are looking for a way to get thinner, to reduce 
body fat, to conform to an idea of beauty they feel pressured 
to emulate.
    That is why we are here. Young lives continue to be 
destroyed or lost due to the illegal use of steroids. That is 
why I have introduced, along with Ranking Member Henry Waxman 
and other members of the committee, legislation to require 
tougher testing standards for performance-enhancing drugs.
    The deeper we get into this issue, the more certain I am of 
the need for Federal legislation to address this dangerous, 
deadly, public health crisis. Our legislation specifically 
addresses professional sports, because that is the public face 
of this vicious cycle. That is where it starts, that is where 
we need to begin to stop it. But we now know that the use of 
illegal performance-enhancing drugs extends to places once 
thought impossible.
    For example, a survey of high school students conducted by 
the Center for Disease Control and Prevention indicated that 5 
percent of high school girls and 7 percent of ninth grade 
girls, had abused steroids without a doctor's prescription.
    Dr. Linn Goldberg, who testified at the committee's April 
30th hearing, and researchers at Oregon Health and Science 
University, Dr. Diane Elliott, will be testifying today, 
reported an increased use in anabolic steroids among high 
school nonathletes. Young women appear to be resorting to 
steroids use as a means of weight control and body fat 
reduction; that is, losing fat and gaining lean muscle.
    The use of steroids for this purpose often goes hand in 
hand with eating disorders, not to mention the abuse of other 
drugs in order to stay thin. At first glance, it may seem odd 
to associate the use of steroids with the desire to stay thin. 
Our mental image of a steroid user is an over-muscled jock. But 
as we will hear today, some steroids are thought to act as an 
appetite suppressant or to burn fat at a faster rate. Sadly, 
females suffer particularly devastating health consequences 
from steroid use.
    Adverse side effects include but are not limited to 
excessive growth of body hair, masculization, premature 
arrested bone development, resulting in stunted growth, 
irritability, delusion, and depression.
    Today we will hear from several medical experts, some of 
whom believe steroid use by young women is an underreported 
problem, and all of whom agree more research and scientific 
evidence are needed to more accurately quantify how large a 
problem we face.
    I look forward to a robust discussion on the extent of the 
problem, what the numbers tell us, and what information we may 
be lacking in understanding the whole picture.
    Dr. Elliott will also discuss her success with a prevention 
program called ATHENA, Athletes Targeting Healthy Exercise and 
Nutrition Alternatives, which is specifically designed for 
middle and high school-age girls.
    Additionally, we are very pleased to have with us Kelli 
White, a former world champion sprinter, who has come clean 
about her decision to use steroids and about her subsequent 
regrets; and Mari Holden, a world-class cyclist, who will 
discuss the pressures clean athletes face in competing in an 
environment where their rivals may be taking performance-
enhancing drugs.
    [The prepared statement of Chairman Tom Davis follows:]


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Tom Davis. I now recognize the distinguished 
ranking member, Mr. Waxman, for an opening statement.
    Mr. Waxman. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing today. We have already held 
three hearings on the issue of steroids, and this is our fourth 
hearing on steroid use.
    But in these first three hearings, we focused on male 
professional athletes and the impact of their steroids use in 
athletics, especially in professional athletics. Today we are 
examining whether steroids are a problem for young women as 
well.
    In April, about the time we were holding a hearing on the 
NFL, several newspaper stories focused on a potentially new 
issue, the use of steroids by young women. These stories 
pointed out that the Centers for Disease Control survey data 
showed that 5 percent of high school women had reported using 
steroids, and, according to experts, the women using these 
drugs are not just high school and college athletes looking for 
a competitive advantage, but girls with body image problems 
hoping to achieve a lean and muscular look.
    These stories got our attention in part because they 
suggest that the pressure to use these drugs illegally extends 
beyond locker rooms and playing fields where we have been 
focusing our inquiry. Steroid use among female athletes is 
unfortunately nothing new. We all recall the images of East 
German female athletes in the 1970's and 1980's.
    But it seems to me that if young women today are taking 
steroids at high rates, and taking them not just to improve 
their athletic abilities and performance but to meet a socially 
expected standard of how they should look, then perhaps the 
steroid problem is even bigger than we had thought.
    Our hearing today will examine the use of steroids by young 
women. First we will hear from two athletes, Kelli White, 
former world champion sprinter, currently serving a 2-year ban 
for steroid use. And to her credit, she has been speaking out 
about the mistakes that she has made. We will hear from her 
today about the pressures on young women athletes to use 
steroids. We will also hear from Mari Holden, a world champion 
cyclist, who has been able to do it without drugs. I know that 
young women can learn from both examples, especially the idea 
that they can compete and win at the highest level of sports 
without resorting to illegal steroid use.
    I want to thank both of you for being here today. Our 
second panel will be consisting of five medical experts. And 
they will help us examine what I think is the most important 
question of this hearing: How big is the problem of high school 
women and girls using steroids?
    CDC survey data shows that over 5 percent have used 
steroids. Separate data from the National Institute of Drug 
Abuse shows lower usage among women. In both cases, the 
government data shows a disturbing trend, with reported steroid 
use among women and girls increasing four fold over the last 
decade. It is low now, but it looks like a trend to growing 
use.
    We will hear from at least one expert today who thinks that 
these government figures dramatically overstate the problem of 
steroid use among women, which he calls an illusion; and we 
will hear from a number of others who may be skeptical of the 
high-end estimates, but have little doubt that steroid use 
among women is growing and represents a serious public health 
problem.
    While I hope we can get to the bottom of these issues today 
and learn from the hearing, we do not need to walk out of this 
room with a precise figure on the extent of steroid use by 
young women, but I hope we can determine if it is a serious 
problem, serious health issue, and, if so, what we can do about 
it.
    Our legislation, the Clean Sports Act, will help solve some 
of these problems. We will hear from our witnesses today how 
society's attitude toward steroids and the professional 
athletes who use them impacts young women.
    By making it clear that steroid use is unacceptable for 
elite athletes, our legislation will send a strong message to 
both the male and female high school and college athletes who 
use these competitors, these stars as role models, but it may 
be that we need to do more.
    Our witnesses today will give us broader insight into the 
extent of steroid use by young women, the reasons for this use, 
and the ways to stop it.
    Mr. Chairman, I thank you for your continued attention to 
the problem of steroid use, and I look forward to the hearing 
today.
    [The prepared statement of Hon. Henry A. Waxman follows:]




<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Tom Davis. Thank you very much.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Chairman, I too thank you for holding this hearing. And 
let me note from the very beginning that, Mr. Chairman, when we 
addressed the use of steroids in professional sports a few 
weeks ago, the lines were very long outside. You could hardly 
get into the room.
    Cameras were all over the place. Reporters were breaking 
their necks to get to the table over there. And now we have a 
situation where, when we address the issue with regard to 
women, the room is not so packed. But the fact is, it is still 
a significant problem.
    The ranking member and the chairman have gone over very 
carefully the statistics, based upon research, and certainly 
there may be differing views on that from different 
organizations. Certainly there may be some who will come before 
us today and say that it is no big deal.
    Well, as one Member of Congress, the father of two 
daughters, I consider it a very, very, very big deal. When you 
think about health problems that often result from using 
illegal steroids--like abnormalities of the sexual 
characteristics, cardiovascular disease, liver and kidney 
complications, and serious psychiatric side effects, including 
acute depression and even suicide, we are talking about--if one 
person, if one young lady uses illegal steroids, it is one too 
many.
    One of the things that I have often seen, Mr. Chairman, in 
my district, is I run into people who use illegal drugs; not 
these types of drugs but others. And one thing that they often 
tell me, even when they have recovered and they are on the mend 
and they have been off the drugs for a long time, they will 
tell me that I can forgive myself, but my body will not forgive 
me.
    And that is a very, very powerful statement. I can forgive 
myself, but my body does not forgive me. With this in mind, 
Congress added certain anabolic steroids to Schedule III, the 
Controlled Substances Act. Individuals possessing such drugs 
without a valid prescription are liable for a misdemeanor, 
while persons convicted of distributing, dispensing, or selling 
those drugs are subject to a 5-year sentence for a first 
offense. In clear and plain terms, illegitimate steroid use is 
a crime. And we need to keep that in focus: It is a crime.
    As the ranking member of the Subcommittee on Criminal 
Justice, Drug Policy, and Human Resources, I routinely work on 
issues related to U.S. drug control policy and public health. 
Although the primary focus of our oversight is Schedule I 
substances, I am particularly concerned that the abuse of 
steroids by female athletes and female nonathletes may be 
underreported and require further study.
    As the title of this hearing conveys, this committee is 
driven by a commitment to eradicate illegitimate steroid use 
regardless of whether they are abused on or off the playing 
field. Today we are united in the belief that the health and 
safety of our communities and generations yet unborn are too 
important to pursue any lesser goal.
    This demands that we not only embrace successful education 
and prevention programs that address steroid abuse by young 
girls and women, but continue to examine unresolved questions 
regarding steroid abuse within this population.
    And so I thank all of our witnesses for coming here today. 
I thank you for sharing your opinions. I thank you for sharing 
your stories. This is our watch. As a Congress, this is our 
watch. When issues come before us, we try to do our best to 
address them, not just for you, but for generations yet unborn.
    And with that, Mr. Chairman, I yield back.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

    Chairman Tom Davis. Mr. Gutknecht, any opening statement?
    Mr. Gutknecht. No.
    Chairman Tom Davis. Ms. Norton, any opening statement?
    Ms. Norton. Thank you, Mr. Chairman. I may be the only 
woman on the dais, but I can assure you that this is a concern 
of this entire committee, and I want to thank Chairman Davis 
for his follow-through after the previous hearings. With all of 
that muscle at the microphone in the original hearings, with 
many famous professional athletes in the room, the original 
motivation for our hearings could easily get swamped.
    There were indeed a number of motivations. The huge ethical 
problems in organized sports tended to grab the headlines, 
especially when everybody in the country knew it was happening 
and nobody was doing anything about it. But the fact is that 
from the beginning, these hearings have been motivated--and on 
the record we have said so--by the growth in the use of 
steroids among children, and that means girls and boys.
    The importance of focusing on children is what we know 
about what steroids can do when adults use them. Mr. Cummings 
has indicated some of the documented results of use of steroids 
by adults, indeed athletes. Imagine how much more serious the 
consequences will be for people who start using steroids when 
they are children. The only analogy I can think of is smoking.
    I mean, if you start smoking when you are a teenager, you 
are going to have a much greater chance of having all of the 
associated illnesses than if you are foolish enough to start 
when you are an adult. So focusing in on young people is 
important, because inevitably they focus in on athletes, and on 
the most successful athletes. The real rock stars of this 
generation are athletes. You know, not everybody can sing and 
play, but they all think that they can take a turn at some 
sport or the other if they get good enough, and getting good 
enough has come to mean, for professional athletes, cheating.
    So we were both teaching cheating to young people and 
teaching something just as serious: how to destroy your health 
at a very young age. Now, I am aware, have read about the 
controversy concerning just how many girls use or do not use 
steroids. I recognize the difficulty of pinning that down in 
this population. I do not regard the controversy as serious, 
because even assuming that girls are using steroids in fairly 
sparse numbers, there is no question that unless we begin to 
focus on what this does for young people, they will do--they 
will finally do what boys do. We see it happening in sports all 
of the time. Indeed in Title IX we tell them that you can play 
anything boys can play. You can do anything boys can do. There 
may be a deterrent to a girl using steroids, if they think they 
are going to look muscle-bound as opposed to simply looking 
slightly more muscular. Given how important looks are to 
teenage girls, perhaps it has not ballooned yet.
    But if all we are doing is sending out the message of 
prevention to parents about girls, that is doing what I wish we 
had done when it came to boys who apparently may be using 
steroids in very large numbers. So this hearing, I think, 
brings us back full circle to where we began. The reason for 
these hearings is to make sure that this terrible problem does 
not become a mass problem for our children; yes, and even for 
girls who may be less inclined, but will surely march up the 
same road if we do not continue to focus on them.
    And therefore, Mr. Chairman, I appreciate that you have not 
dropped the ball, but have kept the ball moving on our kids. 
Thank you very much.
    Chairman Tom Davis. Thank you very much.
    We have our first panel today, and it is a distinguished 
panel. We have Kelli White, the former world champion sprinter, 
and Mari Holden the Olympian and world champion cyclist. It is 
a great privilege to have both of you here today. If you would 
please rise and raise your right hands, it is our policy that 
we swear you in before you testify.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you. Please be seated.
    Ms. White, we will start with you. We have--your total 
written statement is in the record. Questions will be based on 
that.
    We appreciate having you here today. Thank you. Kelli.

STATEMENTS OF KELLI WHITE, FORMER WORLD CHAMPION SPRINTER; AND 
        MARI HOLDEN, OLYMPIAN AND WORLD CHAMPION CYCLIST

                    STATEMENT OF KELLI WHITE

    Ms. White. Thank you, Mr. Chairman, and esteemed members of 
the committee. I want to thank you very much for allowing me 
the opportunity to appear today before this very prestigious 
group. My name is Kelli White. And I appear here today having 
made the regrettable mistake of using steroids and other 
performance-enhancing drugs during my athletic career as a 
sprinter.
    With my experience and knowledge regarding the use of 
performance-enhancing drugs, I welcome the opportunity to 
assist in the efforts to remove doping from sport. By way of 
background, I competed in track and field for most of my life, 
having begun at the age of 10. In my early teen years, I began 
working with renowned Remi Korchemny, who would remain a 
significant figure in my life over the next decade and a half.
    I went on to compete collegiately and graduated from the 
University of Tennessee before turning professional in the year 
2000. At that time, I returned home to the San Francisco Bay 
area and began training full time with Mr. Korchemny. Shortly 
thereafter, in December 2000, my coach introduced me to BALCO 
founder, Victor Conte. Conte initially gave me a package 
containing both legal supplements as well as substances--a 
substance which later became known as the clear or the designer 
steroid THG.
    At the time, I was unaware that anything I received from 
Mr. Conte was a prohibited performance-enhancing substance, as 
I was told by both my coach and Mr. Conte that the vial they 
had given me contained flaxseed oil.
    A few weeks later, Mr. Conte admitted to me that the 
substance he had given me was indeed not flaxseed oil, but 
rather a prohibited substance that if not taken properly could 
yield a positive drug test. I immediately ceased using the 
liquid, because at that time in my career I did not believe it 
was necessary to take performance-enhancing drugs to be 
competitive.
    I competed over the next 2 years without the use of any 
performance substances, despite being constantly urged to do 
so. I was continuously being told by my advisers that the use 
of performance-enhancing substances was necessary to be 
competitive because everyone else was doing so.
    My 2002 season was very difficult, as I struggled with 
injuries for most of the year. I had a great deal of 
uncertainty regarding my status as I entered the 2003 season. 
And I did not want to miss it. I failed to make the 2003 indoor 
world team, and was receiving more pressure to start a 
performance-enhancing drug regime.
    My advisers were pointing to other performances of athletes 
and saying I needed to do what they were doing in order to 
compete on that level. In March 2003, I made a choice that I 
will forever regret. I visited Mr. Conte at his lab which was 
near my home, and we sat down and devised a program to utilize 
performance-enhancing drugs in my training and competition.
    At that time I began taking EPO, the clear, or what is now 
called THG, the cream, and other stimulants. I remained on this 
program over the course of 4 months, and with the help of Mr. 
Conte, I was able to pass 17 drug tests, both in and out of 
competition, while utilizing these performance-enhancing 
substances.
    In a relatively short time period, I had gone from being a 
very competitive sprinter to being the fastest woman in the 
world. In June 2003, I captured both the 100 and 200-meters 
U.S. Championships, and followed that by winning the same event 
in the World Championships in August in Paris.
    Although I crossed the finish line first in all those 
events, I knew in my heart it was accomplished partially 
because of the other line I had crossed. Instead of what should 
have been the high point of my career and a tremendous 
accomplishment in my life, I was ashamed of the choices I had 
made.
    In addition to enhancing my performance on the track, there 
were other physical effects I encountered while taking this mix 
of substances. My blood pressure was elevated, and I also 
experienced an acne problem, increased menstrual cycle, and 
slight vocal cord problems.
    The first and only failed drug test I experienced was 
following the World Championship meet in Paris, when a 
stimulant known as Modafinil was discovered in my urine sample. 
But the penalty for that substance would not have been a 
suspension from track and field.
    A few weeks after the World Championships, the FBI and 
other law enforcement agencies raided the BALCO Laboratory. A 
few months later, I admitted to the U.S. Anti-Doping Agency 
officials what I had done, as I have outlined for you today. I 
received a 2-year ban from competition for my actions as well 
as loss of results from my previous 4 years of competition.
    I also agreed to assist USADA in its mission to clean up 
the sport, and now offer to be of service to this committee in 
any way you see fit. I believe athletes who use performance-
enhancing drugs are hurting themselves, cheating the public and 
betraying our youth. I believe it is important that you 
understand the reasons that I made the choice, in essence to 
cheat.
    I strongly feel the use of steroids and other prohibited 
performance-enhancing drugs are wrong and there is no place for 
them in sports or society in general. However, athletes who 
have made the choice are not necessarily bad people. In my own 
situation, there are many factors contributing to my poor 
decision I made, which include the influence of a longtime 
trusted coach, but, most importantly, I began using these 
substances not to give me an advantage, but because I became 
convinced that I needed to use them to level the playing field 
with my competitors.
    It is a very troubling situation when you have trained to 
compete in a sport at the highest level, and you feel those 
with which you are competing have an unfair advantage. I make 
neither any excuse nor justification for my horrible choice. I 
merely hope to lend some understanding to this committee as to 
how someone who loved her sport and who trained cleanly for 
most of her life got involved in this awful abuse.
    My attorney, Jerrold Colton, and I have worked with 
assisting USADA as well as the World Anti-Doping Agency in 
their efforts, and we believe this committee should further 
support USADA in the fight, as this fight is a very difficult 
one.
    Being mindful that my use of steroids and other 
performance-enhancing drugs was not detected through the 
extensive testing I received, USADA needs the resources to go 
further in its fight to detect the people who are breaking the 
rules. I am certainly most appreciative of this opportunity to 
appear here today to discuss the relationship of women and 
steroids. This is a problem that is not gender specific, and 
affects people across all gender and racial lines.
    As an athlete, I am very aware of the opportunities which 
advanced for women in sports during my lifetime and just hope 
the committee takes note that the pressures and considerations 
pertain equally to men and women.
    I hope there are further studies as to the physiological 
and health impact people face when choosing to use these 
substances. Further, the roles of some national governing 
bodies involved in sports and the coaches which either assist 
in the wrongdoing or turn their backs on what they see must 
have some responsibility, culpability, and penalty for their 
role in making sport unclean.
    The fight against drugs in sports is an extremely difficult 
battle. I am sorry that I cheated myself, my competitors, my 
sport, my family, and the public for the choices that I made in 
the past.
    As athletes we know we are role models, but I betrayed my 
responsibility as such. Please feel free to call on me to play 
any role I can in assisting your committee and anyone else you 
see fit in this very important matter. I hope in doing so, I 
will help the sport I love more by what I do off the track than 
anything I could have ever done on it.
    Thank you very much for your kind attention and for 
allowing me to appear here today.
    Chairman Tom Davis. Well, thank you very much for that 
testimony.
    [The prepared statement of Ms. White follows:]




<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Tom Davis. Mari.

                    STATEMENT OF MARI HOLDEN

    Ms. Holden. Mr. Chairman, members of the committee, good 
morning. My name is Mari Holden. And I am a 2000 Olympic silver 
medalist and 2000 World Champion in the sport of cycling. I 
want to thank the committee for its interest in this important 
subject, and the invitation to testify.
    I have been competing as a professional cyclist at the 
international level since 1993, and have firsthand experience 
of the effects of drug use in sport. I have never used steroids 
or other performance-enhancing drugs, but I have had my hard 
work, dedication, and victory compromised by other athletes who 
have.
    It is important for you to hear from clean athletes who 
have had to work against those who rob all of us of the values 
sport should represent. Unfortunately, much of what is in the 
news is the opinion of athletes who have achieved success by 
using performance-enhancing substances and are now getting 
caught.
    While we should commend those who have the courage to 
accept responsibility for their mistakes, far too little has 
been heard from the athletes who strive to participate in the 
sport, using the right substances; namely, personal 
accountability, commitment, hard work, and integrity.
    As a young girl growing up in southern California, I saw 
the magic of the Olympics in my own back yard when Los Angeles 
hosted the 1984 Olympic Games. I dreamed of being an Olympian 
and representing the United States in athletic competition.
    I even went so far as to practice standing on a makeshift 
podium and singing the national anthem. As a kid my dreams 
seemed straightforward and similar to most people's American 
dream: If you train and work hard, dedicate yourself to your 
goals and play by the rules, you can become a winner.
    When I was 12 on my first bike, I just wanted to go fast. 
And for me it was a matter of seeing how far I could ride or 
how fast I could go on a descent. The rules were the rules and 
no questions asked. We all played by the simple philosophy that 
winners never cheat and cheaters never win.
    Most 12-year-olds today can recite that sacred adage. It 
seems so simple. The reason that winners never cheat is that 
winners recognize the important life lessons taught by sport, 
which are far greater than any title, record or price. True 
champions recognize that sportsmanship exists not only in 
winning but in winning with integrity.
    Sport is valued in part because it builds character, self 
esteem, and confidence. These are the skills that create 
success on the athletic field or in the boardrooms across 
America. And as I transition from athlete to businesswoman, I 
cling to the lessons I have learned over the past 17 years.
    Being a young girl in today's society is not always easy. 
All around there are messages that they need to be thin, and 
how they look is more important than who they are. Sports teach 
young girls and young women that it is our commitment and the 
core within and not just our outer layer that is valued and 
respected.
    I first realized the magnitude drug use can have on my 
career when I went to race in Europe, widely considered the 
pinnacle of professional cycling. I knew that in order to be 
the best in the world I needed to race in Europe full time and 
push myself harder than I had in the United States. Despite 
winning several National Championships titles, I was barely 
making enough money to cover my phone bills back home.
    Women's sports generally do not have the money that other 
sports have. But I was not racing to become rich; I just wanted 
to see how good I could be. For some of my fellow competitors, 
cycling was their only means of supporting a family back home. 
Regardless of whether the athletes were competing solely for 
the money or glory, the temptation to win at all costs was 
prevalent. Athletes need a support system that supports their 
choice to compete clean.
    I made a decision early on in my career not to take 
shortcuts to success by doping. And I was fortunate to have a 
support group, including my parents, coach and husband, who 
backed my belief that the only accomplishments worth attaining 
were the ones that I earned on my own.
    Sometimes it is hard to think straight when you are 
exhausted from a 10-day race, and we know that some people out 
there are cheating. Personally, I have always tried to take the 
high road and tell myself that I was a better sportsman because 
I was successful without drugs.
    Of course, disappointment sets in when you know that 
someone who is not clean beats you and takes away your result. 
In the past it did seem that much of the time the cheaters were 
one step ahead of the testers. The people who cheat are also 
the ones who are willing to use every scientific and legal 
loophole to ensure that they do not get caught.
    Fortunately for clean athletes, this has changed with the 
World Anti-Doping Agency and the U.S. Anti-Doping Agency. A few 
years ago when I told some foreign teammates that 1 day they 
too would be subject to unannounced testing, they did not 
believe me.
    Now that time is here and more people are starting to get 
caught for drugs that they never would have had in their 
systems before. Looking back on my career, I can smile knowing 
I did it in the right way. I have an Olympic medal and earning 
it was one of the greatest achievements in my life. The medal 
is only a symbol, but standing on the podium and hearing Anita 
De Frantz, a USOC and IOC board member, tell me that my country 
was proud was the moment I had imagined since I stood on the 
podium in my back yard. It was a feeling that I had overcome 
the odds and had done it without compromising my values.
    There were so many opportunities to take the easy way that 
I will never look at my medal and feel anything but pride.
    I am here because I want to make sure that the clean 
athletes of today and tomorrow have a voice. Our children need 
to have a level playing field and the use of drugs for sport or 
looks should be deterred at all levels. As a clean athlete, I 
want you to test me so the world knows that when I win, I win 
fair and square. I believe all clean athletes feel the same 
when given a chance to speak freely about these issues.
    Frankly, it is the same simple rule we all followed as 
children on the playground, and which our children hopefully 
still follow today, that cheaters never win and winners never 
cheat.
    [The prepared statement of Ms. Holden follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Tom Davis. Thank you both for the very strong, 
compelling testimony.
    Ms. White, how were you able to elude the USADA and WADA 
testing during the time you were taking steroids?
    Ms. White. Along with the steroid that we were taking, we 
also had a masking agent that we would use. We also knew who 
was testing at which competitions, and we knew what we could 
and could not take.
    Chairman Tom Davis. Were steroids prevalent during your 
years competing in NCAA athletics?
    Ms. White. I do not think so.
    Chairman Tom Davis. You do not talk about it with anybody 
else?
    Ms. White. No. I did not personally think so then. I would 
have never thought it.
    Chairman Tom Davis. What is your opinion of the steroid 
testing that you received during college? Was it rigorous 
enough?
    Ms. White. No.
    Chairman Tom Davis. OK.
    Ms. Holden, what direct experience have you had with the 
other female cyclists taking steroids?
    Ms. Holden. With steroids, I have been beaten by someone 
who was caught for doping, but it was for a diuretic, which 
would be a masking agent. So indirectly I would say yes; and 
that was I received second in that event, and received my award 
later.
    Chairman Tom Davis. It is clear that designer steroids can 
elude the testing. Do you think cyclists are still using 
steroids for international competitions like the Olympics? Do 
you have any idea?
    Ms. Holden. I don't think that cycling is different than 
any other sport. There are going to be people out there who are 
trying to beat the system. That is, I believe that they need to 
have more money for the research, to try and catch these 
designer steroids and designer drugs, because we need to stay 
one step ahead of the game instead of one step behind, which is 
how I have always thought it has been.
    Chairman Tom Davis. Ms. White, did you get any physical or 
psychological side effects from using steroids?
    Ms. White. Yeah, the voice changing, the increased 
menstrual cycle, high blood pressure. It came on very quickly 
too.
    Chairman Tom Davis. Was it pretty pronounced? It was very 
clear that this was affecting----
    Ms. White. Correct.
    Chairman Tom Davis. Well, thank you very much.
    Mr. Waxman.
    Mr. Waxman. Well, I want to thank both of you. You have 
given us an insight into the culture of competitive athletics 
from your respective sports.
    Ms. Holden, you seem to think that there is a lot of 
performance-enhancing drugs used by people in your sport, but 
Ms. Kelli, you do not think so--I mean, Ms. White, you do not 
think that there is much going on? Is that an accurate 
statement for both of you?
    Ms. Holden. I would not say there is a high percentage. I 
do think that it is happening out there. I do not know the 
exact percentage. But it is something that concerns me, and I 
want to try and help make it better out there for future 
cyclists, future athletes in general.
    Mr. Waxman. If you thought of course it was happening out 
there, that would be a pressure on you to use some kind of 
drugs as well in order to be able to compete. You did not 
succumb to that pressure.
    Ms. Holden. No. Personally I would rather not win than to 
cheat that way.
    Mr. Waxman. Ms. White, did you--you seemed to indicate you 
did not think--you knew of people using these drugs when you 
were using them. Do you think that there are other people now 
using steroids and other performance-enhancing drugs in order 
to enhance their performance?
    Ms. White. Yeah, I think so. If you look at the second 
place and the third place at the World Championships in the 200 
meters, they have also tested positive for different 
substances. So they are having 2-year bans also. So in my sport 
it kind of tends to be a big problem. I wish that I could 
really give an answer on how we can decrease the numbers or 
make it stop and go away altogether.
    Mr. Waxman. Well, do you think stricter penalties that they 
have for the Olympics is playing a role to discourage people 
from using those drugs?
    Ms. White. Personally I think that the punishment is a 
little bit harsh. Two years out of a career is very harsh. 
Stricter punishment, I don't think that would resolve it. I 
think there are other athletes that are being caught, and they 
are not being outed as I have been outed. I think being outed 
is a big deterrent. It is embarrassing and it really does go 
with your character, it hurts you in the long run. And I think 
that if we do out people, it could be a deterrent.
    Mr. Waxman. Is there a reason for us to be discouraged that 
even while we have testing, there are people who are looking 
for ways to get through the testing by masking the fact that 
they have been using these drugs?
    Ms. White. I do not think that should be a deterrent, 
because it not only affects professional athletes like we are 
talking about here today, it affects people underneath us.
    I think that if we continue to push forward, regardless of 
what we as professional athletes may ignore, I don't think that 
it is being ignored by other parents and children, you know, 
younger than me.
    Mr. Waxman. Ms. Holden, what do you think about that? Do 
you think that in order to compete, there are--women are 
looking at using these steroids and other performance-enhancing 
drugs, knowing it is the wrong thing to do, knowing that it 
could hurt them if they get caught, and they are willing to 
spend extra effort to see if they can mask it?
    Are the penalties enough to deter them, and what else do 
you think we can do to change the mindset about the use of 
those drugs?
    Ms. Holden. I think that the temptation is probably great 
to go out and cheat, because I think it is taking an easy way 
to a big result. And I personally do not believe that the 
punishment should be any less. In fact, I think that when 
someone cheats and takes away a result from somebody who is 
working hard and doing it clean, that they should be given a 
harsh punishment.
    They are taking away someone else's dreams, and, you know, 
the hard work that someone else has put into it. And so they 
should be punished fully for it. I don't have a problem with a 
2-year bar for someone who is caught for steroids. I think it 
is appropriate. You are robbing someone else of their 
opportunity to see what they can do.
    I mean, the second place person may think that they could 
not win, or the person who got fourth and did not get on the 
podium. I think that is what gets forgotten a lot of times is 
we are hearing, we are hearing about the people who are winning 
who may have had, you know, given in to temptation or 
something; but what about the person who is fourth and who did 
not get to stand on the podium? That person deserves something 
too.
    Mr. Waxman. Ms. White, as you look back on your mistake, 
you knew it was cheating, you knew maybe that it was illegal, 
you knew you didn't want to get caught, because getting caught 
would deprive you of the award.
    What do you think more could have been done to have 
discouraged you from doing this? So we can learn for others. As 
you look at it retrospectively, what more might have had an 
influence on you not to take these drugs?
    Ms. White. You know, I have had that question asked a lot. 
I have been going over it. I can't think of much of anything 
that would have discouraged me at that time. I was at such a 
low point, that there is nothing else but being healthy--I am 
talking with all of the injuries, that I wanted to get rid of 
the injuries--so nothing else would have discouraged me from 
doing it at the time.
    The only thing, like I said, there were other people that I 
knew who were doing the same thing. Maybe had they been caught 
right before me, I would have been like, no, but in considering 
that THG had been around for years prior to my use.
    Seeing others get caught and pay a price for it, that would 
be something. You see someone you know with cancer and dying, 
seeing people tends to make you look at it differently. And it 
is the same thing with my situation.
    Mr. Waxman. Thank you.
    Chairman Tom Davis. Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman. And I echo those 
remarks. Thank you for just this unbelievable testimony. It has 
been very, very eye-opening, I think, to all of us. Just a 
couple of very quick questions.
    First of all, did you notice, you said you saw your body 
respond to these drugs very quickly. When you quit taking them, 
did you see your body respond sort of in that way; did the 
effect go away that quickly as well?
    Ms. White. The blood pressure took a little while to go 
away, with the increased menstrual cycle that--we changed the 
dosage I had been taking and that changed right away also. And 
the acne, that went away. That took a little while to go away 
also.
    Mr. Gutknecht. You also mentioned with not getting into the 
names, but there was a particular individual that you went to. 
Is it fair to assume that individual was consulting with other 
people as well?
    Ms. White. I am sorry?
    Mr. Gutknecht. I guess the point is, you went to a 
particular individual to get these agents, these drugs?
    Ms. White. Right.
    Mr. Gutknecht. It could be fair to assume that individual 
was consulting with other athletes?
    Ms. White. Yes.
    Mr. Gutknecht. It strikes me that it is not enough to do 
testing, there needs to be some level of enforcement for those 
people who are serving as a consult/physicians whatever. I 
mean, there must be a limited number of people who do that.
    Ms. White. I have always had that question asked also; how 
many people are out there doing this? But they are hard to 
find. And a lot of them are introduced to these people through 
coaches. And, it is--you do not usually find people directly. 
So that would be a very hard thing to do.
    Mr. Gutknecht. Well, it strikes me that might be a 
responsibility that we have here at the Federal level, either 
through the FBI or the Drug Enforcement Agency or somebody who 
ought to be trying to track down who these people are who 
become the conduit or purveyors in these kind of drugs.
    I think, perhaps, Mr. Chairman, at some future point we 
ought to consider how we track down these individuals who are 
really the dealers of these kinds of drugs?
    Thank you very much. I yield back.
    Chairman Tom Davis. Thank you very much. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I thank 
both of you for your testimony. I want to go to you, Ms. White. 
You said something that was very interesting. First of all, let 
me say this, Ms. White. That you, I think what concerns me 
about--first of all, I am glad you testified.
    We had a Major League Baseball player here who could not 
admit that using steroids was cheating, and could not even get 
the words out of his mouth that he would plead the fifth 
amendment rights. And so I thank you for at least coming 
forward and trying to make a difference.
    Your testimony makes me wonder, though, about--you said 
some of the folks get caught but they do not get outed. What 
does that mean?
    Ms. White. I know of at least six athletes who tested 
positive, and we have not heard anything about that. Quietly 
they are banned. And, in that response, now that one gets 
caught, and it seems as if that can be OK to keep going on with 
the same behavior of these performance-enhancing drugs.
    Mr. Cummings. Do you think when Mr. Waxman asked you if 
there was anything that could have been done or anything that 
you would have seen that would have caused you not to do what 
you did, you said that you couldn't think of anything. That 
leads me to wonder, then, when you said during your testimony 
that you were working with your lawyer and others to talk about 
your story.
    And I am wondering, do you believe that your story then has 
an effect on other people that may find themselves similarly 
situated where you were? And I understand that you are a young 
woman, there are decisions sometimes, you know, maybe are a 
little difficult, and the lights seem a little hazy and there 
is a lot of pressure. But I am just saying there are a whole 
lot of women out there, just like Ms. Holden, who may employ 
one route; but I am just wondering, do you think that will have 
some impact when you do not think it would have affected you?
    I may be saying that improperly, but correct me if I'm 
wrong.
    Ms. White. Well, I can add a couple of things to that. One 
thing I wish I could change is that when I was approached with 
it in 2000, I wish I would have made the decision then to leave 
my coach. That really would have been the best decision, 
because he continued to urge me to use the drugs. And I think 
that with my story, and in talking about how painful it is to 
go through something like this, so that others will not go 
through this. I also believe that a lot of the pressures do 
come from not only what we see around us, but the people that 
we do spend most of our day with.
    I spent at least 6 or 7 hours a day with my coach. That is 
somebody that I have been working with since I was 12. So you 
tend to trust those people. And I think that we need to educate 
our coaches and others.
    Mr. Cummings. We do not need to educate our coaches, they 
need to understand that they ought to have integrity. That is 
what we need. That is the problem.
    And as I sat here and I thought about my little episodes 
with sports--never was a great basketball player, but I was 
pretty good at football--the coach becomes like a father. So if 
someone has a father-type figure that is saying do this, do 
this, do this, and it is not like you are some 45-year-old 
person, you are a young person, and the coach is saying do 
this, I think that is another type of pressure that--I mean we 
have to look at some of these coaches.
    And I am not trying the take the responsibility off of you, 
but that is extremely alarming that somebody who has a lot more 
experience in life than you, who was supposed to be guiding you 
in the right direction, would say something like that. I would 
have hoped that they would have said something like what Ms. 
Holden said; look, we are going to do this the right way or we 
are not going to do it at all.
    But anyway, you go ahead. I am sorry. Were you finished?
    Ms. White. Yes.
    Mr. Cummings. You said that you felt that the 2-year ban 
was not necessarily fair. Is that because you believe that some 
people have not been, as you say, outed; or do you believe that 
is just totally unnecessary, when you have admitted that it is 
cheating, when you have admitted that--I think you did--that it 
is unfair to other people, and when you have admitted that it 
is wrong? You know, this committee has taken a position almost 
that you should be thrown out of sports completely.
    But go ahead. I am just wondering what your response to 
that is.
    Ms. White. I would have to say that 2 years is pretty harsh 
in a sport. I think that even 1 year is a lesson learned. I 
learned it pretty quickly. It did not take me very long. So I 
think 2 years is very harsh. Because if you look at other 
sports, they are allowed to pay a fine, they are allowed to 
miss a game or two. So I do believe that our lessons are 
learned quickly. I do not think it takes 2 years to correct 
that mistake and to go back and compete clean again.
    Mr. Cummings. I see my time is up. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Mr. Porter.
    Mr. Porter. Thank you, Mr. Chairman, and thank you, Ms. 
White, for being here. You have set such a great example for 
other young folks and other athletes around the country.
    And based on your experience, if there was just a few 
things that you could say to young women that would be under 
similar pressures, what would be your advice to them today, as 
they face similar challenges that you have through the years?
    Ms. White. I would definitely have to say that if you feel 
it is not right deep down in your heart, if someone comes to 
you with something that you feel is just not right, to talk to 
somebody about it, and to walk away from the situation.
    I wish I would have walked away a long time ago, even 
before the usage. And just looking at my mistake, I have paid 
greatly for it, and I will always be looked at differently. And 
I don't believe that is the person that I am deep down, and it 
has changed how people look at me, and I wish that I can go 
back and change that.
    Mr. Porter. Thank you.
    Chairman Tom Davis. Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman, and Ranking Member 
Waxman. I appreciate your focus on this issue. I want to thank 
both of our panelists for coming forward. It takes a lot of 
courage I think in both of your instances.
    I have a 5-year-old daughter and a 10-year-old at home, and 
I worry about whether they are going to face the temptation and 
the same difficulty that you girls have, you women have.
    And I am just curious, in your testimony, Ms. White, you 
said that you had passed 17 drug tests, even though you had 
been taking illegal steroids. Seventeen times. With all of the 
time that you are focusing on training and doing all that you 
have to do to compete, you must have had fairly close--I think 
Ms. Holden referred to it as tutoring, from either Mr. Conte or 
someone else to give you what you needed to enhance your 
performance and then to mask it.
    How did that all happen? I mean, are these people just 
waiting out there to corrupt young athletes such as yourself?
    Ms. White. I do not think it has to do with them waiting to 
do that. Like I said before, I was introduced to him by my 
coach. And it was--it is a service. You basically pay for that 
service. And that is why I really did not have, you know, much 
worry about being caught, because I knew that I was paying for 
a good service.
    And it is a very complicated system that--to do this. It is 
very complicated. And the problem that the drug testers have is 
that the drug makers are far, far ahead of the drug testers. 
And they need to figure out how they can make the gap smaller.
    Mr. Lynch. Now, I understand you received a 2-year ban. Did 
you know that was pretty widely publicized that was the 
consequence for someone who tested positive, a 2-year ban?
    Ms. White. Yes.
    Mr. Lynch. So you knew that? What about Mr. Conte? What 
about people in his situation, where, if he was selling heroin 
or something like that and destroying lives and careers by 
doing that, he would be away for a long, long time; what are 
the consequences for people in that position who corrupt young 
athletes?
    Ms. White. Nothing.
    Mr. Lynch. Nothing. Well, that is something we might need 
to look at.
    Ms. Holden, do you see anything out there that could 
undermine the culture that you fought? You are an Olympic 
Champion, and you have every right to be proud of that. 
Certainly your country is very proud. Is there something that 
you would see that would be readily available to undermine the 
culture; because it has to be starting at a lower level; people 
do not all of a sudden get up one morning and say, OK, I am 
going to take steroids to compete. There has to be some 
acceptability or some receptivity in the younger athletes to 
get them to take that step, to cross that line, as Ms. White 
said.
    Ms. Holden. Well, I think that all sports should be held to 
the same accountability level that Olympic sports are held to. 
I think that would go a long ways into showing younger 
generations that they cannot cheat in order to win. You know, 
it is no signal to our youth if we have professional sports not 
giving strict punishments on doping offenses.
    And it should be standard across the board. I think that 
would be a huge deterrent. If they thought that they could 
maybe not get their scholarship to college because they tested 
positive, or continue on into professional sports because they 
had to sit out too long and they couldn't proceed with their 
training or whatever, I think that would be huge.
    Mr. Lynch. Those are great suggestions. I want to thank you 
both again for your willingness to help this committee with its 
work.
    Thank you. I yield back.
    Chairman Tom Davis. Thank you very much.
    Mr. Shays.
    Mr. Shays. It is so refreshing to be at a hearing like this 
and to hear two very articulate young and fine people give such 
candid testimony. And I contrast it to not just the baseball 
players who were with us, but the players' representatives, the 
commissioners of baseball, you put them--both of you put them 
to shame. And I just want to thank you for being so candid. 
You're helping us understand something that we don't 
experience. We don't know what it's like to be a celebrity, we 
don't know what it's like to seek this kind of success.
    Ms. Holden, you come across in a very strong way, which is 
the way I would want my daughter to; but I'm just wondering, do 
you feel like you were ever tempted? I mean, do you feel like 
were you faced with the same kind of temptations that Ms. White 
may have had with her own coach doing that? Did you have your 
own coaches saying you need to do this and so on?
    Ms. Holden. I was very fortunate in the sense that my 
support group was really positive in backing my wanting to do 
sports without drugs. It sounds to me like Kelli's support 
group wasn't as strong as mine was in the sense of wanting to 
stay clean. And in that sense, I was able to go to Europe with 
that in mind and know where my boundaries were. And you could 
get the sense that someone was trying to offer you something; 
once they realized that you weren't going to do anything, that 
was pretty much where the end of it was for me. Like I was not 
approached in the same way, constantly prodded to do any 
doping.
    I think that people knew my stand on being clean, and it 
was never a problem for me.
    Mr. Shays. Ms. White, I think almost everyone makes 
mistakes they regret, but the mistakes that I might have made I 
made when I was 7 or 8 years old. And my dad--I don't want to 
say beat the hell out of me--but he got my attention. And what 
I'm interested to know is, I'm interested to know when you were 
caught, what did your coach say to you?
    Ms. White. The first thing he said was, it's no problem; 
we'll train for the next 2 years. And that was it.
    Mr. Shays. Has he--you felt--I read an article that said 
you've lost your friends. And I would weep to think that you 
would lose any friends. I would like to think that, given what 
you've learned at an older age, that you would have gained 
friends. But what has been, as far as you're aware, the penalty 
that the coaches paid?
    Ms. White. None. None at all.
    Mr. Shays. Is he still coaching?
    Ms. White. Yes.
    Mr. Shays. He's still out there; he still has people he's 
training. And this was someone that basically was encouraging 
you to take drugs?
    Ms. White. Correct.
    Mr. Shays. Mr. Chairman, it seems to me that's an area that 
this committee--Mr. Cummings, you alluded to this and others--
that's an area that we need to spend a tremendous amount of 
time on.
    You know, when you hear good testimony, sometimes you don't 
need to ask a lot more questions. And I just--I appreciate no 
excuses, and I appreciate--I get a sense that--well, let me 
just ask this point.
    Ms. Holden, when you were racing against people that you 
believed were using drugs, was it almost like feeling like you 
were competing against a machine? I mean, somebody who was 
basically--and tell me the emotion. I'd like to hear it.
    Ms. Holden. Well, I mean, not necessarily like you were 
racing against a machine, because there are a lot of other 
factors that go into racing besides just being strong----
    Mr. Shays. I guess the question I'm asking is, was that a 
hurdle that you had to overcome? I'm just trying to think, if 
I'm racing against someone and it's pretty close and I want to 
beat them, I'm still thinking, my God, this person has an 
advantage that I don't. Did you find yourself, even during the 
competition, thinking it; or once you were in competition, you 
put it out of your mind?
    Ms. Holden. I tried to put it out of my mind when we were 
in competition, because personally I just felt like I knew 
where my mind was; I wasn't willing to do any drugs, so this 
was the hand that I was dealt competing against these women. 
And I still felt confident that given the right day, the right 
training, and having everything come together, you could still 
get a good result in a 1-day race. So I just went out there and 
did the best I could and just tried not to think about it, 
because I figured that if they weren't getting caught, maybe 
they would get caught at some point. And it did happen, so----
    Mr. Shays. Ms. White, I appreciate your comment that when 
you were winning, you didn't feel like you were winning. And 
the message that you have given other people who are competing 
is that they realize that for you that wasn't success, even 
when you were succeeding. And that's a nice thing, I think, to 
make sure that young kids know. Thank you.
    Ms. White. Thank you.
    Chairman Tom Davis. Thank you very much.
    Ms. Watson.
    Ms. Watson. Mr. Chairman, thank you very much.
    I want to say to Ms. White and Ms. Holden, it takes a lot 
of courage to come in front of a congressional committee. You 
know, we sit on high; if you notice, we're elevated and you sit 
down in the pit and we question you. So I want to thank you for 
your courage in coming forward.
    Both of you have risen to the top of your sports, and are 
admired globally for your physical accomplishments. Children in 
particular look at you as role models. And I'm very, very 
worried that the adult athletes who have cheated are held in 
high esteem.
    As a child, I used to think of being a sportsperson as 
something to ascend to, and sports were the way people should 
live their lives, in a sportsman-like fashion--sportswoman, 
sportsperson. I see a culture out there, not only in sports but 
on the streets, a drug culture.
    And so what I want to do is to look at the two of you, and 
first start with Ms. Holden. What was it that led you away from 
cheating?
    And, Ms. White, what was it that led you into the use of 
steroids? What is in our culture; what is it that we don't do 
that we should do so that we won't have this occurring? Because 
behind you come millions and millions of young people who want 
to succeed just like the two of you have. So what can we put 
into the culture and into education, into training, that would 
stop the shortcuts and look down the road to your physical 
best, your excellence in whatever you pursue?
    Ms. Holden, what kept you clean?
    Ms. Holden. Well, I think a lot of it is what Kelli was 
talking about, with how bad she felt that she had cheated after 
it. I guess I always thought about that, and I knew I wasn't 
willing to look at my results in that way. I wanted to make 
sure that when I looked at them, I could show them to my kids. 
I could take out any medal I might get, or something, and be 
able to tell them about how I earned it, the things that I went 
through in order to get there. Those are the things that I 
treasure almost more than the medal itself, is being able to 
look my parents in the face and tell them--you know, be excited 
about a result.
    I think it's unfortunate that so many people want to take 
shortcuts, because I think you miss out on a lot of the lessons 
that you want to get out of it along the way. And I think that 
by succumbing to doping or cheating, you're taking away the 
opportunity for them to get the self-confidence and everything 
that should be coming out of sports and just undermining 
yourself.
    Ms. Watson. I heard you use the word ``confidence.'' Your 
confidence was built how; your self-confidence?
    Ms. Holden. Well, a lot of my confidence has been built 
through my trials and tribulations through sports.
    Ms. Watson. Your family?
    Ms. Holden. My family was a big part of it, always backing 
me on everything that I wanted to do. My coach stood behind me 
and helped me get through situations when I felt like I 
couldn't succeed. There are always points when you're worried 
and you don't know if you can make it.
    I don't know how many times I wanted to quit during my 
career, but I think that my not quitting and going forward and 
trying to do it in the right way, you become self-confident, 
you get self-esteem. And I think these are the things that are 
so important that you get out of sport, that are especially 
important to young women who are growing up.
    Ms. Watson. What can we do in our schools?
    Ms. Holden. I think what's going on now in schools is 
great. I think there are more opportunities for women in 
sports. Unfortunately with that opportunity, if women have more 
professional sports, I think there are going to be more 
problems with doping coming up in the future, because with 
increased money, you have increased pressure. And so I think 
it's important for groups, for USADA especially, to have the 
funding to try and combat doping, because I think that those 
things that we're learning from sports are so important.
    Ms. Watson. Ms. White.
    Ms. White. Mari said in her testimony that there should be 
a support system for athletes who compete clean, and I think 
that there is. I think that we glorify winning more than 
anything. And I think that we should also look at what comes 
along with that, how to do that properly and with integrity. I 
don't think that's emphasized at all, and it should be. And I 
think that's where--it made me come forward with my story as to 
how horrible I felt about what I had done. And I don't ever 
want someone else to go through the same thing that I did at 
all. It was just something that I really do regret.
    Ms. Watson. At what age----
    Chairman Tom Davis. The gentlelady's time has expired.
    Ms. Watson. I'm out of time?
    Chairman Tom Davis. Yes. Thank you.
    Ms. Watson. Let me end by saying, as you respond to others 
you might want to indicate at what age, what stage, did you 
feel you needed some supplements.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. I think in her written statement it 
does talk about how she got into this, at length. But thank you 
for your questions.
    Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman. I would like to yield my 
time to the gentleman from Connecticut, Mr. Shays.
    Mr. Shays. Just for this question that I want to ask both 
of you, because we asked the baseball players this.
    If you saw someone cheating I want to know how you would 
react to it and what you would do, first, if it was a member of 
your own team, or maybe someone that you were competing with 
that wasn't part of your own team.
    I'm going to start with you, Ms. White. Someone is 
cheating, you know they're cheating, what are you going to do 
about it?
    Ms. White. You mean now, or what would I have done then?
    Mr. Shays. I want to know what you should do about it, what 
you would tell any athlete to do about it. You're aware that 
someone--let's just say you're part of the Olympics and this is 
your team. How would you deal with that? If you want a chance 
to think about it, I'll ask Ms. Holden, but I want to know how 
you would deal with that. Would you ignore it? Would you speak 
to the person? Would you go to the coach? Would you speak with 
the person, and, if you didn't get a good answer, go to the 
coach? The person is cheating, right?
    Ms. White. Right. And now--now I would definitely say 
something to them. I don't--I probably wouldn't take it outside 
of that. I think if--from my experience, I think what I would 
have to say to them would be so strong that they probably 
really would reconsider it, just from my experience. It was 
just--it's just a hard battle. It's been a 2-year nightmare, 
and going on 3, so I would have to just talk to them about 
that.
    Mr. Shays. What happens if you were aware that there was a 
coach, a trainer, that was getting people to cheat; what would 
you do in that case?
    Ms. White. That is a different situation. I would go over 
their heads, because they affect more people than just that one 
person that is taking the drug. That's just them, really. But 
the trainer, coaches, they--it affects many more lives and 
people, so I would definitely go over their heads to make sure 
that the problem doesn't spread.
    Mr. Shays. Ms. Holden.
    Ms. Holden. If I hadn't actually seen them cheating or----
    Mr. Shays. You saw someone cheat, there is no question they 
were cheating.
    Ms. Holden. There was no question.
    Mr. Shays. No question.
    Ms. Holden. Well, then I would say something about it. I 
would first tell them and give them the opportunity to go turn 
themselves in; and then I would say something, too, if you knew 
they were cheating. The problem is, is that people don't cheat 
right in front of you, so you don't want to label yourself as 
someone who's, you know, going out and telling on everyone. So 
I mean, it's hard to have direct proof of doping unless someone 
fails a doping test.
    Mr. Shays. I think that's fair, and that's why it's a 
hypothetical question. But I think, Ms. White, given your 
experience, if you saw someone cheating, and you're saying all 
the things that you've said, that you would need to speak to 
them. And if they didn't respond, I think you would have to do 
what Ms. Holden did; you would have to say to them--and you 
know they've done it, it's not a question, I think you have to 
do more than that, frankly. Maybe it's a little more difficult 
for you to do that, because you feel maybe a little more 
hypocritical, since you've been there. So I'd cut you a little 
slack there.
    Thank you. And thank the gentleman for yielding.
    Chairman Tom Davis. Thank you.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. And I want to thank 
all of my colleagues in the Government Reform Committee for 
lifting the veil of secrecy that has hidden the steroid use in 
professional sports for far too long. And I thank the panelists 
for your courage in coming forward today.
    I have received countless calls from constituents who are 
eager to see American athletes return to their fundamental 
values of integrity and honest competition. As a mother of two 
children, I am particularly--two young girls--I am particularly 
disturbed to learn that steroid use is increasing, especially 
by young women, and it is being used not only to enhance their 
athletic performance but to attain a near impossible standard 
of beauty.
    This statistic I find startling, and I'm sharing it with my 
colleagues, that the Centers for Disease Control reports that 
5.3 percent of girls between 9 and 12 have used steroid pills. 
And the rate of teenage young women using steroids has nearly 
tripled in the last decade alone. And obviously we have to 
approach this problem from treatment--from two angles: 
treatment and intervention. But the problem also has to be 
attacked at the level of family, community, and schools.
    But I believe it is also a problem that must be approached 
on a cultural level. And my question to our two panelists is, 
really, the effect of messages from our media industry and what 
these messages send to young women for near impossible body 
looks and so forth.
    And it's very troubling. Obviously every athlete is a role 
model to other young men and women, and if one is using 
steroids, it obviously encourages others to do so. So it's 
very, very troubling.
    And, basically, how many young women will have to struggle 
with cancer or liver damage or masculinization of their bodies 
before we take a real honest look at the cultural influences on 
young women? And I'd like you to comment on it, the impact of 
the media and the media industry and the messages that they are 
sending to young women that may influence them to take 
steroids.
    Ms. Holden. I think that the media is actually giving a 
better body image than they did a few years ago, in part 
because women's sports are becoming more popular and a little 
bit more realistic than the stick-thin models of the past.
    As far as the steroids abuse in young women, that--I can't 
really speak to them wanting to masculinize their bodies, and I 
hope that the over-muscular women aren't the ones that they're 
trying to become like.
    Ms. White. It is a very disturbing thing to find out that 
there are nonathletic women taking steroids, because I didn't 
realize that you can actually get an effect from not working 
out with them. I thought that you had to be doing something 
with them to be taking any effect.
    And I think the media, it is kind of--they do play a role 
in the image of what women should look like. And I've also even 
fallen into it a little bit just in the glamorization of myself 
and looking at different TV shows of plastic surgery shows and 
things like that.
    So there are a lot of pressures to look a certain way, but 
I think that's why we should also encourage the flip side to 
that and teach women how to be comfortable with their bodies, 
in what they have been given in themselves.
    Mrs. Maloney. How do we teach them to be comfortable with 
themselves?
    Ms. White. The same way that we tell them that it's OK to 
change their body if you feel like it. We should also in school 
teach--as we teach any other subject--a confidence course. I 
don't know; I mean, I think men need it also because----
    Mrs. Maloney. Do you believe that young athletes may be 
more likely to use steroids because some professional athletes 
may have used steroids during their careers, successful 
athletes, that comes after using steroids? Do you think that 
younger athletes are thereby encouraged to use them?
    Ms. White. I don't think that comes from just the 
professional realm, just the pressure. It goes even further 
down, to making it just to the next level, from high school to 
college, from college to the professional arena. I don't think 
it necessarily comes directly from a certain person. I just 
think the pressures from those around us are just a little 
bit--are high.
    Mrs. Maloney. My time is up. Thank you.
    Chairman Tom Davis. Well, I just want to thank this panel. 
It has been very, very helpful to the committee. We appreciate 
very much you taking your time today in each of your cases, 
from different perspectives, coming out with your stories. It's 
been very helpful. So I dismiss this panel.
    We will take a 3-minute recess while we get the next panel. 
Thank you very much.
    [Recess.]
    Chairman Tom Davis. Thank you very much for your patience. 
We had a great first panel, and we have now a very 
distinguished second panel as well.
    We have Dr. Diane Elliott, professor of medicine at Oregon 
Health and Science University, and thank you for being with us 
today; Dr. Todd Schlifstein, clinical instructor at the New 
York University School of Medicine; Dr. Harrison Pope, 
professor of psychiatry at the McLean Hospital in Belmont, MA 
and Harvard Medical School; Dr. Charles Yesalis, professor of 
health policy and administration at Penn State; and Dr. Avery 
Faigenbaum, professor of health and exercise science at the 
College of New Jersey.
    Thank you all for being with us. It's our policy we swear 
people in before they testify, so if you would just rise with 
me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Dr. Elliot, we'll start with you. Thank 
you for being with us.

 STATEMENTS OF DR. DIANE ELLIOT, PROFESSOR OF MEDICINE, OREGON 
 HEALTH AND SCIENCE UNIVERSITY; DR. TODD SCHLIFSTEIN, CLINICAL 
    INSTRUCTOR, NEW YORK UNIVERSITY SCHOOL OF MEDICINE; DR. 
   HARRISON POPE, PROFESSOR OF PSYCHIATRY, McLEAN HOSPITAL, 
 BELMONT, MA, AND HARVARD MEDICAL SCHOOL; DR. CHARLES YESALIS, 
PROFESSOR OF HEALTH POLICY AND ADMINISTRATION, THE PENNSYLVANIA 
STATE UNIVERSITY; AND DR. AVERY FAIGENBAUM, PROFESSOR OF HEALTH 
        AND EXERCISE SCIENCE, THE COLLEGE OF NEW JERSEY

                STATEMENT OF DIANE ELLIOT, M.D.

    Dr. Elliot. Thank you for inviting me to participate.
    I'm a physician and professor of medicine, and with my 
colleague, Linn Goldberg, and a dedicated team of researchers, 
we have been working with young student athletes for more than 
a decade.
    I know the committee members are becoming experts on 
steroids, and I want to speak to their use among young women. 
You know, your testicles make testosterone, which change boys 
to men, and ovaries produce estrogen, which transforms girls to 
women. The two hormones are closely related, and our cells can 
respond to both in unique ways. Because a woman's testosterone 
level is 2 percent of adult men, lower doses of steroids can 
have marked muscle-building effects and ratchet up a woman's 
muscle size and strength, and they are made to order for 
females wanting to lose body fat and gain muscle. Potential 
additional benefits include making women feel more aggressive 
and powerful.
    Steroids also have masculinizing side effects for women, 
including voice deepening, facial hair growth, acne, clitoral 
lengthening. During adolescence, when our own hormones are 
kicking in, factors affecting drug use and its consequences 
begin to differ for men and women. Women, more so than men, are 
affected by sexual stereotyping and promoting a body that is 
neither healthy nor feasible, which can make a woman feel 
inadequate and motivated to buy clothes, use make-up, and use 
drugs to achieve that end.
    The unrelenting pressure to lower body weight is a factor 
that promotes disordered eating and use of body-shaping drugs 
such as laxatives, diuretics, diet pills and steroids. For 
young female athletes, societal pressures can be compounded by 
the pressures of their sport, the pressure to win, and increase 
their risk for these problems.
    Recent attention has been drawn to young women's anabolic 
steroid use. A 1993 large survey showed an increase in use 
among young women. Every other year, the CDC surveys a national 
sample of 15,000 9th through 12th graders. In the most recent 
2003 data, 7 percent of ninth grade girls reported AS use; 7 
percent using steroids is higher than other national surveys 
and our own data, which are closer to 1 or 2 percent use among 
young women. True rates may be difficult to determine. Women 
who tend to use drugs alone, are better able to conceal drug 
use, and the potential shame and stigma may lead to a bias to 
underreport.
    There appear to be two groups of young women steroid users. 
The first and larger subset use steroids once or a few times, 
and have more disordered eating behaviors and use of other 
weight-loss or other body-shaping drugs. A common misconception 
is that young women with disordered eating are good girls who 
obey all the rules. In general, disordered eating habits 
cluster with other health-harming actions, including drug use. 
The sequence may be that girls have low self-esteem, feel 
depressed, and engage in disordered eating and body-shaping 
drug use, and then progress to use of other drugs and alcohol.
    Girls reporting steroid use also use more alcohol, tobacco, 
marijuana, and other substances. They have greater risk for 
drug use, including more depression, greater perceptions that 
others are using drugs, and fewer rules, explicitly rules 
against their use. Less than half of these girls are in team 
sports.
    My interpretation of the younger girls' use of 7 percent is 
that they're indicating they're using drugs that probably 
aren't steroids. Unlike most drugs, which have an immediate 
effect, steroids take time to see an effect. So after a few 
days of using these drugs nothing is happening, not like when 
you take a diuretic or laxative, and they may stop use. As they 
get older, they recalibrate to what steroids actually are, and 
that's why the use drops among older girls.
    Still, 1 to 2 percent is significant when applied to a 
population and comparable to those using crack or LSD. The 
second group of young women steroid users use them more 
frequently, and they're a unique group. Many carry guns; have 
missed school because they felt unsafe; and half are trying to 
gain, not lose, weight. Depression is common, and almost half 
of these high-end users have attempted suicide in the last 12 
months.
    So for most young women, steroids are not about being great 
athletes; they're markers for problems and clusters of health-
harming behaviors. In general, for young women and men being in 
sports neither markedly promotes or protects from drug use. 
What being in sports does is provide an ideal solely for 
promoting healthy life-styles and learning skills that will 
deter health-harming behaviors. We took advantage of those 
features with the ATLAS and ATHENA program.
    ATHENA is a program for young women athletes. And while 
both programs share the team setting, the content is specific 
for each sex. During the sports season, the programs are 
incorporated into a team's usual practice activities. Each 
session uses scripted lesson plans for peer-led fun activities.
    With NIDA funding, we studied ATHENA among 40 sport teams 
from 18 high schools in Oregon and Washington. Following the 
program, girls in ATHENA had less new and ongoing diet pill 
use, and less new use of athletic-enhancing substances, 
including steroids, amphetamines, and sport supplements. They 
also had less riding in a car with a drunk driver, less sexual 
activity, and fewer injuries. They ate better and strength 
trained more effectively.
    We continue to follow those young women, and assess them 
again a year after high school graduation. The ATHENA graduates 
reported less use of alcohol, tobacco, and marijuana. Those 
long-term findings show that drug prevention can work, and 
focusing on risk factors and healthy decisionmaking skills can 
have a lasting impact.
    Today, scholarships and even an occasional career in 
professional sports are attainable goals for women. While there 
may be parity in sport participation and college scholarships, 
the financial and career potential of professional sports is 
much less for women. And most people would find it difficult to 
name five active professional women athletes who have not made 
millions.
    Drugs are bad, sports are good. It's commendable the 
committee is showing concern for America's youth and recognizes 
the national significance of drug use. Reducing drug use among 
professional athletes sends a message that steroids and other 
performance-enhancing drugs are not tolerated.
    I'm a doping control officer for USADA because I believe 
athletes should not be pressured to use drugs to compete. 
However, I've outlined the factors that women's drug use and 
drug testing Olympic or professional athletes will not impact 
on those risks.
    It's also unrealistic to think that drug testing 
professional athletes will clean out boys' locker rooms. Ben 
Johnson had his Olympic medal taken away for steroids before 
most adolescent athletes were born. You've heard that the NFL 
has a drug testing program, but recently there has been steroid 
use among high school football players. The steroid genie is 
way out of the bottle and drug testing professional athletes 
won't put it back. Elite athletes are but one influence on 
young males' performance-enhancing drug use. Adolescents know 
anabolic steroids work. They know they're illegal. And they 
know they have side effects. However, when they use steroids, 
most are not thinking about professional careers, or even 
college. They feel invulnerable and want a shortcut for looking 
better next week and playing better next weekend. That's why 
effective education is a critical component.
    Last year Congress passed and President Bush signed the 
Steroid Control Act. It included funding of science-based drug 
use prevention for children and adolescents. To date, those 
funds have not been appropriated. Sports teams have untapped 
potential as settings to positively impact behaviors. Funding 
the Steroid Control Act that you already passed will go a long 
way for giving schools the muscle to get drugs out of youth 
sports and allow programs with proven success to strengthen 
sports' health-enhancing mission.
    Thank you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Dr. Elliot follows:]




<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Tom Davis. Dr. Schlifstein.

              STATEMENT OF TODD SCHLIFSTEIN, M.D.

    Dr. Schlifstein. Thank you. I'm a sports medical physician 
at NYU Medical Center. I teach at the School of Medicine on 
anabolic steroids. I teach a sports medicine course which 
lectures on all types of supplements, including steroids. I go 
around lecturing to local high schools about supplements and 
steroid use. And I also do the same positions for professional 
sports, college sports, as well as do physicals and treat high 
school athletes as well.
    Use of anabolic steroids is coming into the spotlight, 
especially over the last several months. Attention has been 
focused on professional sports. However, the use of steroids in 
professional sports may have a large trickle-down effect to 
college athletes, high school athletes, and nonathletes.
    Recently, new studies have brought evidence of the use of 
steroids by females who are both athletic and not athletic.
    Anabolic steroids are ergogenic aids. What does that mean? 
That means they're a supplement used to enhance performance. 
Anabolic steroids are androgenic derivatives of the male 
hormone testosterone. There is no pure anabolic compound out 
there. That is to say that there is no substance that also has 
all the androgenic properties or male hormone effects.
    Now, designer steroids are made specifically to increase 
the anabolic effect while decreasing the androgenic effect in 
order to get the maximum benefit with the least side effects. 
Designer steroids also came to the highlight because they also 
were designed not to be picked up on drug testing; and that is 
where, for example, THG came to the forefront.
    The incidence rates in young children, adolescents, 
teenagers, and especially females, is very difficult to 
determine. There are several studies that people have been 
referring to, and you can go back into the Journal of the 
American Medical Association back in 1998 where the incidence, 
even in junior high school, varied from 1 to 11 percent, and in 
high school as well.
    More recently, the Center for Disease Control studies show 
an incidence of 5 percent of high school girls were using 
steroids, 7 percent of ninth grade girls were using steroids, 
all without a prescription. These statistics compel us to look 
further at the use of steroids in females. More recently, 
patients have come to me and anecdotally discovered that they 
were taking anabolic steroids--young females, professional 
athletes, some not athletes at all, some professional models, 
other girls just trying to maintain weight.
    The question is, why would a young female put themselves 
through the risk of these things, knowing the side effects that 
there are? Anabolic steroids are generally used to help 
increase muscle mass and strength when combined with 
appropriate training. Two or more steroids taken together, 
stacking, which occurs in 6 to 12-week cycles, this can 
increase the level androgenic level 10 to 40 times normal in 
males. Now, in females, that would be greater than 100 times 
the levels tested for. The full benefit of these androgenic 
aids is incompletely studied and is very poorly studied of the 
hormone levels in females.
    There are several reasons why females, both athletic and 
not athletic, may look to anabolic steroids or may look to 
abuse anabolic steroids. Certain steroids are believed to have 
appetite suppressant effects. Some of these steroids are 
supposed to burn fat at a faster rate. Males normally have a 
higher percentage of lean body mass and less percent body fat, 
and a large effect of this is due to the male hormone 
testosterone. Testosterone plays a major role in the way that 
weight is distributed through the body and the way our 
metabolism works. All these methods may help to control body 
weight without having a muscle-bound body; in other words, in 
order to change one's ratio of fat to muscle, to be more lean, 
and to lose percent body fat as a way of controlling one's body 
weight by appetite suppression as well as weight control.
    Now certain steroids are believed to have certain 
properties than other steroids, meaning certain benefits are 
more anabolically mass building; other ones may have more 
appetite suppression effects or fat suppression or metabolism 
being accelerated. Clenbuterol, cytomel, parabolan, phenformin, 
these are all ones that are believed to have appetite 
suppressant effects as well as fat burning effects. So certain 
ones are more specifically attuned for different reasons.
    Now if one goes on to the Web, one will notice several 
things. You can buy these things on line, you can buy them on 
the Internet, and there are thousands of sites where you can 
buy these things. They will also tell you which ones to take. 
They will tell you, for girls, if you want to lose weight, if 
you want to have your appetite suppressed, they will tell you 
which ones to take and how to take it. They will tell you that 
they can reduce the side effects by taking it appropriately and 
not abusing it, and these are largely found all over the Web. 
So they're advertising to these people and encouraging them to 
use them and telling them that they can use them in a safe way.
    I've talked to other people in Italy, the Italian study 
that was going on, and they had a similar incidence rate in 
high schools that is comparable to the CDC study. I talked to 
people in Mexico about a study they were doing which also had 
similar rates. Mexico is another problem, as it can be bought 
over the counter without a prescription, and is very easily 
accessible. You can call them up and they will deliver it to 
your house.
    Other problems, on-line ordering and using anabolic 
steroids, is that you can make our own steroids. You can buy 
legal steroids that are made for cattle or for pigs. You can 
order it and it will be delivered to your house. And they will 
tell you how you can convert it so you can use it as an 
anabolic steroid. So people order large quantities of cattle 
hormones, which I spoke to a police officer yesterday about and 
DEA yesterday about, which is perfectly legal; but obviously 
this person is not raising cattle in Manhattan, unless there's 
a big supply of cattle in Central Park we're unaware of--that 
is producing mass quantities of anabolic steroids for years.
    I don't have to go over again extensively the major side 
effects or problems with anabolic steroids, especially in women 
and young adolescents: The closure of the growth plates; you 
will stop growing. That is not reversible.
    Some other side effects may be reversible: thinning of the 
hair, male pattern baldness, thickening of your skin, oily 
skin, acne, deepening of your voice. But some of these things 
may not be reversible. And they still have all the other 
negative effects from anabolic steroids as well.
    I know I'm over the limit. I just want to say one more 
thing. Also what this brings to our attention is that not only 
have I seen numerous patients who I haven't been looking at 
previously, who are young females, not athletic, using it to 
control weight. Now that we're opening our eyes and looking at 
this, we may be seeing a lot more of that.
    Now, there are no long-term studies that are looking at 
long-term side effects of steroids, and we don't know what kind 
of problems all these people are going to have 10, 15, 20 years 
from now. But also with this, we should also look at other 
substances that are being abused, other stimulants, 
amphetamines and other things that aren't banned, and should be 
banned, and are quite often abused with this. People who abuse 
steroids tend to be abusing a lot of other drugs at the same 
time.
    Thank you.
    Chairman Tom Davis. Thank you.
    [The prepared statement of Dr. Schlifstein follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Tom Davis. Dr. Pope, thank you.

            STATEMENT OF HARRISON G. POPE, JR., M.D.

    Dr. Pope. Thank you, Mr. Davis.
    Let me just preface my remarks by saying that I strongly 
support the efforts of this committee. I think that steroid use 
is a major public health problem here in the United States, 
both in professional sports and among young men, and also among 
elite women athletes, as our first panel so eloquently told us.
    And I also, in preface, would like to remind the 
committee--the comments by Mr. Cummings, who had to leave us--
but even one case of somebody using anabolic steroids is one 
too many.
    However, if I could have the first slide, please, Scott. 
Having said that, let me just turn to the actual strict science 
here. And I would argue that as we look at the actual 
scientific data, that there is no methodologically sound 
scientific evidence that there actually is a serious problem of 
anabolic steroid use among teenage girls in the United States. 
So I'm not denying the severity of the problem, but 
specifically among teenage girls there is little evidence to 
support a genuine problem.
    And I would argue that this is called what we call ``false 
positive'' responses on questionnaires. And to explain that, 
let me just go through some slides very quickly.
    If I could have the next slide.
    Here is the much-quoted figure from the CDC that 7.3 
percent of these ninth grade girls stated on an anonymous 
questionnaire that they had used lifetime illegal steroids.
    But if I could have the next slide.
    Let me remind you what we mean by steroids. Anabolic 
steroids, the subject of this testimony here, are drugs like 
testosterone and its relatives, drugs that are used to gain 
muscle and lose fat, drugs that are a serious public health 
problem among men, and drugs that are illegal under DEA 
supervision. However, if a girl answers yes on an anonymous 
questionnaire, how can we be sure that she has used one of 
these genuine anabolic steroids?
    And if I could have the next slide.
    The answer is we can't. We can't go back and find the girls 
who answered yes, and ask them to clarify their answer to make 
sure that when they said yes, they were accurate; and that they 
had really used genuine anabolic steroids.
    Now on the next line, let's look at the actual question by 
the CDC. It simply says: During your life, how many times have 
you taken steroid pills or shots without a doctor's 
prescription? It doesn't specify anabolic steroids, it doesn't 
say steroids for muscle building.
    Well, now turning to the next slide.
    Suppose a girl has taken steroids from her dermatologist or 
used her mother's steroid skin cream for poison ivy, or she 
used an asthma inhaler that has steroids? Well, these are not 
anabolic steroids, these are corticosteroids. These are drugs 
that have no muscle-building abilities, they are not illegal 
under the DEA, they don't have a black market, and they are not 
drugs of abuse.
    Birth control pills, estrogen, and progesterone are 
technically a type of steroid, but they're not drugs of abuse. 
Then there are the so-called adrenal steroids sold legally over 
the counter, until last year, in health food and supplement 
stores. These substances are not true anabolic steroids. They 
have at most only weak anabolic properties, and are not the 
DEA-controlled anabolic steroids that I showed on my original 
slide.
    So if a girl answers yes on an anonymous questionnaire, 
just on the strength of having used one of these substances 
that she's using a steroid, it is not a real yes; it is an 
invalid answer.
    Now, going to the next slide.
    Suppose a girl gets the questionnaire and she has bought 
something in the health care store that she thinks is a 
steroid--like creatine or some pill with some name that is 
meant to sound like a steroid, like sterol pills, or similar--
again, a girl may erroneously answer that she thinks she has 
taken real anabolic steroids, when in fact she has not.
    So, on the next slide.
    How would we resolve this dilemma? Well, the answer is very 
simple. We do a study where we actually go out and interview 
people in person, get a trained interviewer who will actually 
see these people and ask them to clarify and make sure that 
they really have used genuine anabolic steroids.
    And, on the next slide.
    There exists such a study; the federally funded National 
Household Survey--it's now called the National Survey on Drug 
Use and Health--actually does this. They send trained 
interviewers to see about 20,000 Americans and interview them 
in person about drug use.
    Now, if we look at the data from the next slide.
    The National Household Survey, when women were asked in 
person by a trained interviewer, thereby eliminating or 
minimizing this risk of false positives, we find that out of 
7,500 women, there were only 18 women, or 0.2 percent, who took 
real steroids. Now, admittedly this is from 1994, but a number 
of studies in the interval from now until the present--which I 
can't stuff into 5 minutes of testimony--have converged to 
suggest that once you eliminate this problem of false 
positives, that the true rate of real anabolic steroid use 
among teenage women is probably only a few tenths of 1 percent.
    So, on the next slide.
    The bottom line here is be very careful; do not be misled 
by rates of so-called steroid use when it's done by anonymous 
questionnaires, without confirmation to make sure that the 
answers were valid.
    And now if I could skip ahead two slides.
    Well, how could you prove me right or wrong? Well, it's 
easy to prove me right or wrong. What you do is you go out and 
you give the same question that CDC did, except this time you 
put in a line at the bottom saying: ``if you answered yes, 
please name the steroid that you used.'' And then we could find 
out if somebody lists a genuine steroid like testosterone, we 
know that it's a genuine yes; if they list something else, we 
know that it's a false positive.
    And alternatively--on the last slide--we could put anabolic 
steroids back onto the National Household Survey--or what is 
now the National Survey on Drug Use and Health--next year, and 
have interviewers ask people directly.
    Now, I will submit to you here under oath, on the record, 
that if you did this, with care to eliminate false positives in 
a scientifically rigorous fashion, that the true rate of real 
anabolic steroid use among teenage girls is still only a few 
tenths of 1 percent. And it's important for us to concentrate 
on this science because we've got to know where to apportion 
our resources in what is really a genuine problem.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Dr. Pope follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Tom Davis. Dr. Yesalis.

                  STATEMENT OF CHARLES YESALIS

    Mr. Yesalis. Well, I'm going to depart from my prepared 
remarks to strongly disagree with my long-term colleague, Dr. 
Pope. First I want to start by looking at the motives. During 
the hearing so far----
    Chairman Tom Davis. This is the kind of hearing we like. Go 
ahead.
    Dr. Yesalis. Well, we talked about the benefits, perceived 
benefits of using anabolic steroids: adulation, financial 
rewards, scholarships, improved appearance, the competitive 
pressure on our young people to use these drugs. I don't know 
of any evidence why all those trends would impact young men 
greater than young women. So I think motivation applies equally 
across the aboard.
    Availability. A couple weeks ago I was in New York 
testifying at a criminal trial regarding anabolic steroids. I 
had in my hand a 10-week supply of human growth hormone, real 
stuff coming from Communist China. It cost $1,400. If any of us 
would have received this legitimately through a physician, 
going to a pharmacy, it would cost $2,500. I had 20,000 
Stanozolol pills in my hand, real stuff from Communist China, 
that cost $400; 20,000.
    Clearly the Internet is out of control, but the point I'm 
trying to make is it's available, and it's available equally to 
young boys and young girls.
    Three, effectiveness. These drugs are dramatically more 
effective on females than they are males. There is no debate 
about that. If you look at the data, not only the CDC's data 
but the Monitoring the Future data conducted by contract 
through the University of Michigan, showed, under the 
Monitoring the Future in 1989, it went--this is lifetime use--
from 0.9 percent to 1.7 percent, approximately doubled. The one 
out of DSS went from 1989--it just didn't pop up to 5.3; it 
started at 1.2 percent in 1989, it went to 5.3. So this 5.3 
just didn't come out of nowhere; it's been increasing steadily.
    Also when we've done these surveys of children, there have 
been reliability studies that kids pretty much tell the truth. 
Now, you're not going to get that same level of candidness from 
an NFL player, an MLB player, but kids tend to tell the truth 
on these surveys. Surveys do have an advantage--applied 
surveys, questionnaires, do have an advantage over face to 
face. Sometimes when you see somebody face to face, it 
intimidates you. So the National Household Survey on Drug 
Abuse, as it was called back then, is a very good survey but 
there is not a consensus that it's gold standard.
    In regard to bias, if I had to--if you asked me where the 
bias is, it's underreporting. Dr. Goldberg, who had testified 
at previous hearings, agrees with me on that, along with Dr. 
Wadler.
    And with regard to confusion on this, I would submit if a 
kid is confused in that with one of these surveys, I would 
submit that the average kid, when it comes to this, has more 
street smarts than the majority of the people in this room as 
to what is really meant by these drugs.
    Well, what should we do? First of all, my background is 
public health, I'm an epidemiologist, and I would err on the 
side of caution. I'm assuming--I'm going to assume that we have 
200,000 to 500,000 young women in this country who have used 
these drugs at least once. And what do I mean by used at least 
once? Nobody uses one injection or one pill; it would have no 
impact. And these drugs are used in cycles which are 6 to 12 
weeks or more duration.
    I've been an educator for going on 30 years. Education 
isn't working on this. You need to add to educational efforts, 
some level of testing at the high school level, and test--
random testing and testing with suspicion. I think that's 
imperative.
    And, finally, we have to give our kids a real clear message 
that steroid use, growth hormone use, and other performance-
enhancing drug use will not be tolerated by their role models, 
these elite athletes.
    And I know that a very good bill has come out of this 
committee which would mandate that the WADA--World Anti-Doping 
Agency--lists the drugs be used, to take amphetamine use out of 
the NFL and pro baseball. It would also turn over testing to a 
disinterested third party so we don't have the fox guarding the 
hen house. And I think that's imperative; that if you keep 
letting professional and collegiate organizations do their own 
testing, you're going to give a horrible message to our 
children, and that has to be stopped. And a disinterested third 
party like USADA needs to take over the testing.
    Thank you very much.
    Chairman Tom Davis. And thank you very much.
    [The prepared statement of Mr. Yesalis follows:]




<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Thomas. Dr. Faigenbaum.

                 STATEMENT OF AVERY FAIGENBAUM

    Mr. Faigenbaum. Mr. Chairman and committee members, thank 
you for inviting me to participate in this important hearing 
examining steroid use among young females.
    Although anabolic steroids, or, more appropriately, 
anabolic androgenic steroids, have traditionally been used by 
adult strength and power-athletes, in the United States the use 
of anabolic steroids has in fact extended to younger 
populations.
    While the use of anabolic steroids is generally higher in 
males than females, the CDC reports that adolescents have used 
or are currently using anabolic steroids. Researchers have 
recently suggested that anabolic steroid use may begin before 
students enter high school.
    It has been reported that up to 2.8 percent of middle 
school females report using anabolic steroids. The latest 
report from the CDC, as we have heard today, suggests that 
about 7 percent of middle school females have tried anabolic 
steroids at least once.
    While it appears that a growing number of young females in 
the United States are using anabolic steroids for nonmedical 
reasons, I do believe that the possibility of underrecording 
false negatives and overreporting false positives needs to be 
considered. As we have heard today, it is possible that some 
children and adolescents may have confused anabolic steroids 
with similar medications such as corticosteroids. On the other 
hand, it is possible that students may have underreported 
anabolic steroid use for fear of punishment or 
disqualification?
    In my opinion, some young females are in fact using 
anabolic steroids. The perceived benefits of anabolic steroids 
are not without serious consequences, which may include 
clotting disorders, liver dysfunction, reproductive 
abnormalities, and psychological effects, including 
uncontrolled aggression.
    The use of anabolic steroids by children and adolescents 
poses additional concerns because the use of these drugs during 
this developmental period may result in premature closure of 
growth plates that may result in stunted growth.
    In my judgment, it is reasonable to conclude that increased 
pressure in young females to excel in sports, as well as 
concerns that some females have about their physical 
appearance, may result in a perceived need for chemical 
interventions to enhance performance or alter body size 
favorably.
    At a time when the number of overweight children and 
adolescents in the United States continues to increase, it 
seems that some middle school and high school athletes and 
nonathletes may be tempted to use anabolic steroids for weight 
control and body fat reduction. Young females, like adults, 
want quick results. The CDC reports that 59 percent of adults 
and females are currently trying to lose weight.
    While anabolic steroids can in fact favorably alter body 
composition and enhance strength and power performance, users 
must participate regularly in a vigorous strength and 
conditioning program in order to achieve the desired results. 
Without the stimulus of strength exercise, anabolic steroids 
will not be ergogenic or performance enhancing.
    Findings suggest that children and adolescents are 
knowledgeable about the potential physiological effects of 
anabolic steroids as well as the potential influence of these 
drugs on physical appearance. However, their knowledge of the 
potential harmful effects of anabolic steroids, in my view, 
seems incomplete. These findings suggest that proactive 
interventions are needed, and that positive messages young 
females may receive about the use of anabolic steroids from 
peers, parents, coaches, and professional athletes are 
effective.
    In my opinion, the use of anabolic steroids by professional 
athletes contributes to the belief among some young females 
that anabolic steroids are not harmful. In my view, 
comprehensive anabolic steroid prevention education 
interventions, supported enthusiastically by health and 
physical education teachers, should begin before high school.
    In addition, our young females need to be provided with 
healthier alternatives to anabolic steroids. A well-balanced 
nutrition plan, combined with a fitness program that includes 
strength exercise, is a healthy alternative to harmful 
behaviors.
    In our youth physical activity programs over the past 20 
years for young athletes and nonathletes, our motto is, ``It's 
not what you take, it's what you do that counts.'' There is no 
replacement for a healthy diet, proper physical training, 
adequate sleep, and qualified coaching. The best ergogenic aid 
is, in fact, a well-designed training program.
    It appears that the use of anabolic steroids has, in fact, 
trickled down to young females. Health care providers, as well 
as teachers, youth coaches, and school administrators, in my 
view, need to be part of comprehensive steroid education 
interventions that are science-based and promote public media 
awareness. Additional research is needed.
    I also believe that reducing anabolic steroid use by 
professional athletes will have a positive impact on boys and 
girls. Thank you.
    [The prepared statement of Mr. Faigenbaum follows:]




<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Tom Davis. Well, thank you all very much. Let me 
start the questioning.
    And Dr. Elliot, you mentioned in your testimony that the 
ATLAS and ATHENA programs have been effective and successful in 
promoting healthy life-styles and preventing steroid use for 
middle and high school age females. Do you have any idea how 
many high schools are currently implementing ATLAS and ATHENA?
    Dr. Elliot. I know it's in 30 States right now; I don't 
know how many kids have gone through.
    Chairman Tom Davis. Any idea why more schools aren't using 
the program.
    Dr. Elliot. Well, it's a new paradigm. It's health 
promotion not in a health class. It's in a role that coaches 
aren't used to; so it takes some additional effort, like 
funding the--appropriating funds to help tip that, to get it to 
take off, because it is a new way that coaches aren't used to 
doing these peer-led curriculums, even though the sport team, 
when you think about it, is certainly an ideal setting to do 
that: to teach healthy behaviors, to strengthen the things that 
protect girls from drug use, how to prevent depression, insight 
into the media, to increase their self-esteem, to reduce the 
belief that others are doing these things.
    Chairman Tom Davis. We have heard in some of our previous 
panels about how you could identify potential steroid use among 
young athletes, because they would bulk up, gain weight 
quickly.
    What are the warning signs that parents and teachers and 
coaches would look for in the case of females?
    Dr. Elliot. I think it is important to remember that 
steroids among young women is part of a constellation of 
health-harming behaviors, disordered eating behaviors, use of 
diuretics, laxatives. I think that it is important that you, as 
you have heard here, that parents state clear messages to their 
kids about not doing these things, they do things to help 
increase their self-esteem, that they reinforce, it is not 
about winning, that sports is about learning to be physically 
active, something you are going to do for life, the enjoyment 
of being with your teammates.
    I had to train myself not to have the first question out of 
my mouth is, did you win? It is not supposed to be about 
winning. And if they do suspect something, if they see that 
there is mood changes, kind of a funk last more than 2 weeks, 
that they ask the child about their suspect behaviors, saying, 
I have a concern about your behavior.
    And because I love you and care more about you and not 
about how you look and whether you win, ask them about it 
directly.
    Just in response to what Skip said, in our questionnaire, 
the words anabolic steroids are used to gain strength. They are 
not corticosteroids used for treatments of asthma or rashes. On 
how many occasions have you used anabolic steroids in pill or 
injectable form? Don't count pills you buy in health food 
stores. That gives us 1 or 2 percent girls answering positive 
to that question.
    Chairman Tom Davis. Thank you. Thank you. Dr. Schlifstein, 
as a doctor, do you ever ask patients where they obtain the 
drugs, and their knowledge on how to use steroids?
    Dr. Schlifstein. I always want to know who is giving it 
them or how they are getting it. Very rarely are they getting 
it from a physician. Very rarely. Lots of times they are buying 
it at the gym, or they are buying it on line, ordering it from 
other countries.
    I have patients that go to Mexico regularly just to pick up 
anabolic steroids. Other people are making it. They order 
cattle hormones, and then you can make it yourself, it is very 
easy to do. They will tell you how to do it online. You can 
make mass quantities. It is perfectly legal to buy the 
hormones.
    Chairman Tom Davis. You stated that an ergogenic benefit of 
steroids is incompletely studied in females. You also state 
there are no long-term studies on the side effects.
    Do you think that findings from recent surveys will 
generate a greater amount of research into female steroid use?
    Dr. Schlifstein. Hopefully it will generate more research. 
Certainly on the long-term side effects, no one has really 
looked at over a long period of time. We do not know what these 
people who have been using steroids for 5, 10, 15 years what is 
going to happen to these people 10 years down the road.
    A lot of the side effects that are well documented are well 
documented in short term. That just can be the tip of the 
iceberg. We do not know what kind of problems they are going to 
have 15 years from now. Studies in rats, most of the rats that 
were on steroids had at least a 20 percent reduction in life 
span.
    Chairman Tom Davis. Thank you. Dr. Pope, I am fascinated by 
your study on this, and have done some work on statistics. Let 
me ask you this, do you think that the potential shame and the 
stigma associated with steroid use could lead to an 
underreporting of the problem?
    Dr. Pope. Well, that is an issue that was just raised by 
Chuck. Maybe if I can ask your indulgence to have one more 
slide here, if I could see slide No. 5 from the supplemental 
ones there.
    Chuck raised the reasonable question, if you are in a face-
to-face interview, maybe people are underreporting their 
steroid use. But we find that in the national household survey, 
which is the face-to-face interview, that the rates for other 
drugs like marijuana, cocaine and other drugs are pretty close 
to those obtained in anonymous questionnaires. So that would 
argue that underreporting is not a major--it may be some 
factor, but it is not a major statistical factor in these 
numbers.
    Chairman Tom Davis. All right. Thank you very much. My time 
is up. Ms. Watson.
    Ms. Watson. I have several questions. I am going to have to 
leave for another meeting. But let me just throw them out real 
fast.
    Dr. Pope, in listening to your testimony and seeing the 
slides, you talk about the face-to-face or the paper interview 
and response. What about the testing that is done? Has that 
been factored into your results?
    Dr. Pope. There is very little actual testing, urine 
testing for women or, even for that matter, men. On that point, 
I would side very strongly with what Chuck Yesalis said. We 
need targeted testing.
    So my answer to your question is, I am all for that, and I 
wish there were more of it, but alas, for our purposes in terms 
of making estimates we have very little.
    Ms. Watson. So you are saying that your look at the use, 
based on paper and pencil, or face-to-face interviews, 
indicates that it is not a widespread problem?
    Dr. Pope. Specifically among teen-aged women. Now, remember 
I am not questioning that it is a problem among elite women 
athletes, as we heard from your previous panelists. And I 
certainly don't question the problem among men.
    I do not question the fact that body image is a major 
problem for young women today. I'm specifically questioning a 
specific scientific point here, which is, the use of anabolic 
steroids by teen-age women, I believe has been exaggerated by 
these studies.
    Ms. Watson. So what you are saying is that we need other 
ways of testing this theory, or whatever you want to call it 
out, rather than giving an estimate, because I did see 
information that was prepared for us, that over 500,000 young 
people in athletics have used steroids.
    And I did not exactly know what the age levels were. So you 
are saying, young women below a certain age, not adult women, 
are probably not using to the extent that you think.
    Dr. Pope. Correct. Now, there are some adult women who have 
used steroids. And to my knowledge, the only actual peer-
reviewed scientific study in which investigators actually went 
out and interviewed real women who had used steroids, to be 
published in the last 5 years was published by me in 2000. It 
was a NIDA grant, where we spent 2 years aggressively 
recruiting women steroid users.
    And in the eastern Massachusetts area, despite going to the 
most hard-core gyms and other places that we could find, we 
only located 17 women who had used steroids. And of these 17 
women, the number who had started using their steroids as 
teenagers was zero.
    By contrast, when we have done studies of male steroid 
users on various NIDA-funded grants, we have gotten abundant 
numbers of study subjects without any difficulty.
    Ms. Watson. Based on what you know, and what you have found 
from your studies, what are your recommendations?
    Dr. Pope. I think the first thing we need to do is what was 
on my last two slides, which is, to test this in a method 
designed to eliminate these so-called false positives, in other 
words, if you answer yes to the steroid question, fill in on 
the line below the name of the steroid that you took.
    Or use the national household survey, or as it is now 
called, the national survey on drug use and health, to get 
followup data with personal interviews, so that we can try to 
get some scientifically reliable data, up to the minute, on the 
true levels of steroid use among young women, so that we can 
decide how best to apportion our resources here.
    Ms. Watson. The professor who has my same first name, 
Elliot, Dr. Elliot, thank you for being here.
    I am kind of troubled by the testimony I heard from Dr. 
Pope as to our overestimating. But we do know that our young 
people are taking all kinds of drugs. If we delay some other 
form of testing so we can come to--we will have the empirical 
evidence based on scientific methods, what harmful affect can 
the taking of all of these different drugs, be they anabolic 
steroids or whatever they might be, what effect would it have 
in the long run by the time they get to be 21, 22, what effect?
    Dr. Elliot. Well, as I mentioned, it looks like for girls 
there is a progression of, in general, girls in adolescence, 
their self-esteem goes down. They are putting on weight and 
they are seeing images of lean, toned women, and that is not 
the normal change of adolescence for girls.
    They become depressed. They begin having disordered eating 
behaviors, and using body shaping drugs, one of which is 
anabolic steroids. But as I mentioned, it doesn't have an 
immediate effect like a diuretic or a laxative, and so you take 
it for a few days, nothing is happening, I get a pimple and I 
think it is a side effect and I stop it.
    I am still using a drug, I still have disordered eating 
behavior. You could have prevented that if there had been a 
program to help me prevent getting depressed, to increase my 
self-esteem. Girls are more quickly addicted to drugs, and then 
have problems as an adult, so that disordered eating may 
progress to use of alcohol and other drugs.
    So it is too late if they had a heart attack. I really need 
to treat high blood pressure and get people's cholesterol down. 
Because if I wait until they have real problems, then it 
becomes a big societal problem, there is increased drop-out 
from school, pregnancy, continued problems with other drugs, 
moving on to other types of addictions.
    Today, a girl today, compared to when I was a girl, is 15 
times more likely to become addicted to drugs. It is a problem 
that can be prevented. Testing for anabolic steroids is very 
expensive. Most drug testing programs in high schools do not 
test for anabolic steroids.
    Ms. Watson. I see. I am a former school board member. And I 
also sat on the Senate Education Committee for 20 years. I am 
very concerned about where we go from here. I think whether we 
under or overestimate, we have a problem in this country with 
drug use. And you cannot turn on your television, you cannot 
turn on your radio, you cannot read a newspaper or magazine 
that we are not pushing drugs.
    So from the other doctors on the panel, how can we address 
the use of drugs of any kind, and, you know, maybe they are not 
anabolic steroids, but somewhere along the way, as Dr. Eliot 
just said, it grows by degrees.
    You know, I have a headache. Well, it is a constant 
headache, so I need to use something stronger than an aspirin. 
And how do we, you as medical professionals, and us as 
educators and legislators, how can we--what methods, what 
options do we have to address, regardless of the numbers, Dr. 
Pope, how can we address this excessive drug use?
    Dr. Yesalis. The old fashioned hearing, I advise people to 
go back to basics. You know, in our increasingly secular 
society, I don't think moms and dads are giving constant 
messages to their children about appropriate behavior, drug 
abuse being one of them.
    And I emphasize the word ``constant.'' They need to get 
that word when it comes to performance drugs constantly from 
the coaches, with the same amount of energy as a coach gives a 
half-time talk.
    And, look, if our kids do not have well-established moral 
boundaries that they know not to cross over, all of the 
education in the world just isn't going to cut it. And I think 
that is where, in my lifetime, I am 58, that is what I have 
seen, that we are, more and more of our children are getting 
these messages. Well, it is not cheating if everybody does it, 
or it is only cheating if you get caught.
    Moral relativism. Situational ethics. That is, in my 
judgment, that is root of all of this. And people like us, all 
we do is try and repair, the best we can, and I don't think we 
are doing a very good job of it, of the consequences of that.
    Chairman Tom Davis. Thank you. The gentlewoman's time has 
expired.
    Ms. Watson. Thank you Mr. Chairman.
    Chairman Tom Davis. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Let me thank you for continuing with this series of hearings 
relative to steroid use in our society.
    I think it is important that we try and get at the true 
nature of it. And I think one of the most important questions 
that we have at this hearing, regards the true extent of 
steroid use by women.
    Now, CDC surveys show that more than 5 percent of women are 
using steroids. The NIDA surveys show a lower number, about 1 
percent. Dr. Pope's testimony stated that the phenomena of 
steroid use by teen-age girls was an illusion. It noted a 
number of reasons why there could be false positives of the CDC 
tests.
    I am trying to get a handle on how big or how small the 
problem really is that we are facing. Dr. Yesalis, do you agree 
with Dr. Pope's analysis of the data?
    Dr. Yesalis. Well, I said I significantly disagreed with 
it. Dr. Pope has contributed a lot of high-quality research to 
this area, and I respect him very much. We just, on this 
particular issue, disagree.
    One of the things I look for, is there consistency from one 
study to another? Now, Monitoring the Future study, the latest 
data I have is 1.7 for 2004, have used, 1.7 girls have used 
data--anabolic steroids in the last year. That is yearly 
prevalence, 1.7 for 12th grade girls.
    Now, lifetime use, common sense tells me it would have to 
be higher than that. So if you go with 1.7 you might have a 
couple hundred thousand, 150,000, 200,000 young girls. If you 
go with the 5.3 or the 7 percent figure, you can have up to a 
half million. As I said before, I want to err on the side of 
caution here.
    And I have earned my living as a scientist, but there is a 
time, you know, you have to say, wait a second, we have to look 
at the health of our kids, the betterment of society. So, you 
know, if you want to do extra studies, fine, I am not going to 
have that stop me. I am going to pursue education and drug 
testing right now.
    Mr. Davis of Illinois. Thank you very much. Dr. 
Schlifstein, it is my understanding that you have treated high 
school girls who have taken steroids, and that have you 
firsthand experience with many high school athletes. Do you 
agree with Dr. Pope's testimony?
    Dr. Schlifstein. I understand where he is coming from. I 
don't necessarily agree with it. I think, well, first of all, 
that study he was commenting on, he was talking about whether 
there were missing inhalers or, it specifically says pills or 
injections. And like Dr. Yesalis said, you are looking at very 
different studies of a similar incidence report. When I spoke 
to people from other countries as well, they found a similar 
rate also.
    I think if you surveyed girls in their 20's and looked at 
it, you would find a higher number. I think as people become 
more Internet savvy, and our younger people become older 
faster, they are very well educated and knowledgeable about 
these things, and they know which ones to take and how often to 
take it and what the side effects are.
    There is a lot of information available out there. Very 
easily accessible, and it is so easy to get. And it is going to 
be helpful, then they may certainly try it. And it doesn't mean 
all of those people are staying on it. No. It means that they 
will be trying it as a weight loss or weight control measure. 
It is very easy to obtain these steroids from numerous 
different sources. It is not difficult. There is plenty of 
information out there, that may be also very misleading.
    Some of these Web sites will give you information, tell you 
how to do it with getting the least amount of side effects, 
where areas and Web sites just for women, it says women, what 
kind of benefits you will get from it, how to avoid getting the 
male hormone side effects, the androgenic side effects.
    So I think there is a problem out there. Even if the number 
is 0.1, if it is not zero, there is a problem.
    Mr. Davis of Illinois. Thank you. Dr. Faigenbaum, you have 
conducted your own studies of steroid use among young girls. 
They found that over 2 percent of middle school girls in 
Massachusetts had taken steroids. Do you agree with Dr. Pope's 
testimony?
    Dr. Faigenbaum. I disagree. I think it is important that we 
look at the scientific data. And I think there is a need for 
better scientific data to get out there. I have also worked 
with physical education teachers, health education teachers, 
and coaches for the past 15 to 20 years.
    I think you would be hard pressed to find a health 
education teacher at the middle school or high school level who 
will say it is not a problem at all for athletes and 
nonathletes. So we have the science, but then we have reality.
    And my experience has been, at conferences, seminars, in my 
professional work with coaches, physical education teachers and 
health education teachers, that it is a real problem among 
young female athletes, and nonathletes. I think if a 14-year-
old girl is willing to take laxatives, diuretics and 
amphetamines to get skinny, I think anabolic steroids might be 
on her list.
    Mr. Davis of Illinois. Dr. Elliot, would you have anything 
to add?
    Dr. Elliot. It is not about steroids by themselves; these 
kids are using alcohol, marijuana, other drugs. They are risk-
takers, they drink and drive. So I know that you heard this 
tragedy of Taylor Hooten, but in general, the kids who use 
steroids are using lots of other drugs.
    You have heard that half of them are not in sports to make 
them look better, they are not even in sports. So it is a 
marker for deviant behavior.
    Mr. Davis of Illinois. You know, in conclusion, I think 
that some of the estimates for girls may be a bit high, but I 
am also thinking that, it seems to me, that female athletics is 
becoming more and more competitive.
    I mean, it seems to me that there was a time when not as 
much emphasis was put on the competitive nature. And as female 
athletics become more competitive, do you think that we may 
have a problem as females compete now more ferociously than 
perhaps we have always seen in the past, and we need to do 
something to head off this trend that might be developing. I 
thank you, Mr. Chairman.
    Dr. Elliot. You are absolutely right. I mean, there were 1 
in 27 girls in sports when I was in high school, and now it is 
1 in 2. There is scholarship parity. There are not the 
lucrative, you know, obscene salaries that some professional 
athletes get for young women, there are no women on the Forbes 
50 top paid athletes list. It is really bringing boys down to 
where girls are, if they are just getting caught up with the 
boys, if that is how they are, it is bringing all of the 
sports, all of the emphasis on winning down for boys and girls, 
so they do not feel this pressure to win, it is about having 
fun, being physically active, something you are going to 
continue for life.
    Mr. Davis of Illinois. Thank you. Mr. Chairman----
    Mr. Shays [presiding]. It is just the two of us. So let's 
have fun. You have the floor.
    Mr. Davis of Illinois. Go right ahead.
    Dr. Yesalis. Well, if you look at some of the NCAA 
violations, it is unfortunate that some of the women's 
collegiate athletic programs have gone down, or are going down 
the same road, as far as violations, as the men's sport have.
    So, you know, I agree with Dr. Faigenbaum. If you use that 
analogy, or Dr. Elliot I think said, if they are using other 
drugs or if they are cheating in other respects, use of 
steroids is unfortunately not that big a deal after a certain 
point.
    So I think your point is a good one. Quite clearly women's 
sports, the level of competition, I was a strength coach, in 
another aspect of my life, and, I remember in the mid 1970's, 
later 1970's watching female collegiate athletes in the weight 
room, and they were going in there with make-up on and jewelry.
    About 3 years, 4 years later, they were in there pushing it 
as hard at the guys were, just in that short period of time 
there has been a significant shift. So the pressure is there. 
And the temptation is there.
    If you do not have that boundary line that you will not 
cross, if that is absent, or it is grey, I do not know of any 
reason why women won't cross that line just as quickly as men.
    Dr. Elliot. You saw the positives were really comparable 
for men and women over the last couple of years. It is not 
confined to men.
    Dr. Pope. I would have no question that these trends are 
alarming, and that the increasing pressure on women to excel in 
sports it is in things that we should definitely be watching 
closely. Certainly this engages many risks, the issues of body 
image and the pressure to win that has been discussed here.
    But I differ a little bit from Chuck Yesalis on this issue 
of what is the scientifically conservative approach. I would 
argue that the conservative scientific approach would first be 
to show, in rigorous scientific fashion, that there is a 
problem; rather, they assuming that there is a problem before 
we have done a rigorous test of the type that I described.
    Mr. Davis of Illinois. Well, thank you very much gentlemen, 
lady. And, Mr. Chairman, I have no further questions. I 
appreciate your indulgence.
    Mr. Shays. I thank the gentleman. Gentlemen and lady, this 
has been a very, very interesting hearing.
    I am struck first by the fact that I am leaving this 
hearing believing that the temptation for women is almost 
greater than for men in the sense that steroid use can have an 
even greater impact. Is that a false impression to leave?
    So for the record, shaking of heads, no answers, I will 
assume that everybody agrees for the record.
    I have something that the staff wants, I have some of my 
own questions, but the one that the staff wants to put on the 
record, Dr. Faigenbaum, could you please elaborate upon your 
reference to multi-dimensional school-based approaches?
    Is this consistent with programs such as Dr. Elliot's 
ATHENA Program for females.
    Dr. Faigenbaum. That is exactly the program I am referring 
to, the work of Dr. Elliot, which is a multi-faceted program, 
which doesn't simply focus on steroid education.
    That kind of multi-faceted program, which is not simply 
telling children that steroids are good or bad, but it is a 
comprehensive program with a healthy alternative. That is what 
I am referring to with a multi-faceted kind of focus.
    Dr. Yesalis. I would like to add, one of the Members asked 
a question of you, Diane, why your program is not in more 
schools. And I, look, Dr. Elliott's and Dr. Goldberg's program 
in my judgment is the best in the Nation by far.
    I think it is not in more schools because of this problem 
of denial. You know, as I was quoted accurately by the AP 
several months ago, if I had $100 for every time a high school 
principal or coach told me, Doc, it is a problem, but not in 
our school, I would have a Ferrari in my driveway instead of a 
Corvette.
    So, you know, every school district is short of money. That 
is what they always argue. So if they deny having a problem, 
then they do not have want to spend the time or effort to 
institute such a program. That is the big problem that I have 
seen around the country.
    When we did our steroid study in Massachusetts, 20 randomly 
selected middle schools were selected to participate by the 
Board of Education in Massachusetts. All 20 school 
administrators, as we just heard, denied there was a problem at 
that school and would not allow us to administer that survey at 
that school. It was a problem in other schools, but not their 
school. Therefore, we needed other methods to administer this 
survey in Massachusetts.
    Mr. Shays. That is a good trigger point for me just to 
comment. I taught at a private--I didn't teach, I worked as an 
administrator in a private school on a part-time basis. And the 
school was a school where the students did not drink or smoke, 
and, you know, it was a religious school, and that sex before 
marriage was just not condoned. And there was this sense that 
there was this real high moral standard.
    And the students struck me as being angry. And I couldn't 
quite figure it out, until I realized there was drinking, there 
was sex, and there was smoking in the school. And the anger was 
that none of us--the students knew it, and we did not. And 
there was such a big disconnect between the students and the 
administrators. And once we uncovered it, it was stunning how 
pervasive it was, and how obvious it was, and frankly how 
hypocritical it was for us to have assumed it, and the students 
were basically living this lie, but really not aware.
    You get my gist. And I am--which leads me, Dr. Pope, I came 
to this hearing thinking, give me a break. Not this many 
people, students are involved. Then you went through your 
analysis, and I thought the exact opposite after you went 
through your analysis, because I thought, if I had filled out a 
questionnaire, and then someone came back and wanted to know 
more detail, I would clam up.
    Like, with when I was in the Peace Corps, they wanted to 
know how many people were, just tell us how many of you have 
used marijuana and everything will be all right. The next thing 
we know, we saw a busload of these volunteers leave the first 
day, who had volunteered that they had used marijuana. That 
was, you know, that was the integrity of that question and that 
process, I mean, and nobody wanted to say anything after that 
point.
    I guess my point is, given that it is so easy, given that 
there is this network, kids talk to each other, and it is a 
network under the radar screen. And I think if a few kids know 
it, everybody knows it. If some kids know how to get it, most 
everyone knows how to get it. That is my sense of it. I am 
saying that, because I like to know how many disagree with what 
I just said, or how many agree? And I am going to go right down 
the line, and tell me where you disagree.
    Dr. Elliot.
    Dr. Elliot. Well, you are right, that there is a halo 
effect around your own kids or coaches for his own team. It is 
a problem at other schools. But coaches do care about kids. 
They really are there for the kids. They feel pressure from 
parents and the school to have a winning season. Too, if a 
child is using steroids, they are getting bigger and stronger, 
they are becoming a better player, unlike other drugs.
    Mr. Shays. Do you believe that kids also are aware, maybe 
not who is taking it, but aware of how they can get these 
drugs?
    Dr. Elliot. The CDC data are that the availability is the 
same. I mean, by seniors, most--that there is a high 
availability and they don't believe it is that harmful if you 
just use it a little bit.
    There is more hits for ``buy steroids'' on the Internet 
then there are for ``buy baseballs''.
    Mr. Shays. OK. Anything else you want to add?
    Dr. Elliot. No, thank you.
    Dr. Schlifstein. Kids are very knowledgeable. They know how 
to get this. And certainly there is a lot of denial from anyone 
about their own local school or their own personal problem. But 
also some of these people suggested maybe get it from personal 
trainers, fitness trainers, maybe those are older people, but 
certainly coaches and other people are involved, and at the 
higher competitive levels, maybe giving access or suggesting 
the use of some of these supplements as well.
    But also, denial is a large part of it, and also there is 
no testing in high schools. Less than 4 percent of the U.S. 
high schools have done testing for anabolic steroids ever.
    Mr. Shays. Do you buy the numbers that have been, the 
number of kids?
    Dr. Schlifstein. Yeah, I believe those numbers. I think the 
questionnaire was fine. I think it has limitations on it, of 
course there are. But, also you have to remember, when you are 
asking a 14, 15-year-old girl, are you taking illegal male 
hormones in order to make yourself look better, I do not know, 
even if she has been doing it her whole life she is probably 
going to say no. It is a very hard to answer even on a survey.
    Mr. Shays. Dr. Pope.
    Dr. Pope. I certainly agree with you on your point that 
these kids are aware. I wouldn't quarrel with that for a 
minute. But, I would stick very strongly to the scientific 
precautions that I have given you about the numbers. And if I 
could just, you know, tolerate one more slide, if you can just 
put up No. 4 there. This is the national household survey, 
which Chuck Yesalis alluded to. Could I have No. 4 back, 
please.
    Now, this is a survey also done with anonymous 
questionnaires on high school students, 2004, equal time. But 
instead of 7.3 percent of 9th graders in the CDC study, here we 
have another federally funded anonymous survey study with the 
0.9 percent of 10th graders. Now, with two large federally 
funded studies, using identical methods, are getting results of 
7.3 and 1 and 0.9 in another, you know that something has to be 
wrong.
    Mr. Shays. Was this the use over the last year or lifetime 
use?
    Dr. Pope. This is used into a lifetime.
    Dr. Yesalis. That was last year. That is only the last 
year. If you add them up, it would be a lot different.
    Dr. Pope. Let me just get the actual numbers here.
    I have here table 1, trends in lifetime prevalence of use 
of various drugs. For 8th, 10th and 12th graders.
    Mr. Shays. What is the number?
    Dr. Pope. For both sections combined, it was 1.9 percent of 
8th graders and 2.4 percent of 10th graders, but remember, the 
males outnumber the females.
    Mr. Shays. This one, though, was for 1 year.
    Dr. Pope. No. I am pretty sure those are lifetime rates in 
females.
    Mr. Shays. You are under oath here. Let us back up. Slow 
down.
    Dr. Pope. I am sorry. You are correct. That is an annual 
rate that I am quoting.
    Mr. Shays. And that is not my credit, that is good staff 
work.
    Dr. Yesalis. I feel comfortable that the numbers are 
somewhere between 200,000 young women and 500,000 have used 
these at least once in their life. I think the kids know about 
this. I agree with everything, you know, you stated. And I do 
have a Corvette.
    Dr. Faigenbaum. I too believe that children and teenagers 
are aware of what anabolic steroids are, how to get them and 
the potential effects. I also believe that youth coaches are 
well aware of the effects of anabolic steroids.
    I believe that there are certain performance measures that 
can be expected in boys and girls who play sports, those who 
train with weights or perform in track and field and other 
events. And I think youth coaches are aware of what can be 
expected, following 8, 12 or 16 weeks of training, and what 
might be a bit bizarre.
    There are some numbers in my mind, when training young 
athletes that if I see a 10, 20 or a 30 percent gain in a 
beginner, that seems rather common. But when working with a 14-
year-old or 15-year-old young athlete, who makes a 30-percent 
gain in performance in a matter of 6 to 8 weeks, in my eyes, I 
view that as nearly physiologically impossible to make that 
kind of gain.
    I think youth coaches are aware of the problem, but as we 
have heard today, I think there is a tendency to look the other 
way.
    Mr. Shays. OK. Let me, I just have two other areas of 
questions. I am leaving this hearing with the belief that you 
could make a strong case for using steroids in a controlled and 
moderate way, and they could be healthy and helpful to you.
    And I do not know if I should leave feeling that way. But, 
I believe that what I am leaving with is the view that the 
overuse of steroids is bad. I am not saying using them in 
sports is right, I am not speaking to the rightness or 
wrongness of using steroids, but from a medical standpoint, one 
of the challenges we have is that you could use steroids in a 
moderate way, gain some benefits that would be desirable for 
some people, and that they would not have any adverse health 
affects.
    And so therefore, a parent arguing to their kid, don't do 
this, that this smart young kid could say, mom, in moderation 
it is OK. That is the way I am leaving. And if I am wrong in 
that, then tell me. But if I am right, let us not deny it.
    Dr. Yesalis. The anabolic steroids have been, just to give 
one example, I think you are correct in my judgment, have been, 
the World Health Organization has explored their use as a male 
contraceptive since the mid 1970's. And it has been shown to be 
a successful male contraceptive, using doses significantly 
exceeding what many track athletes have used.
    And these drugs have been used in medicine since 1935 plus. 
So I hope we haven't been killing people, you know, using them. 
So they have been used as a prescription drug for all of that 
time. So, yeah, I have answered, for years of course they can 
be used safely, as any drug. There is no drug that has an 
absence of side effects.
    Mr. Shays. And used for beneficial purposes.
    Dr. Elliot. Would you use amphetamines? They will perk you 
up for the game, maybe a handful of Sudafed. It is not really 
not going to probably kill you. I think that the idea is they 
do have health effects on young women. It is cheating. It is 
doing something unhealthy.
    Mr. Shays. I am not going down that road right yet. But, it 
seems to me, if you do not arm people with the full 
information, and you try to distort some information then you 
lose credibility.
    Dr. Elliot. Absolutely.
    Mr. Shays. And some people may take steroids for a shoulder 
injury. Correct?
    Dr. Elliot. That is a different kind of steroid. They will 
inject you for bursitis with a corticosteroid, that is not an 
anabolic steroid.
    Mr. Shays. All right. So one of the points you want to make 
to me are, there are steroids and there are steroids.
    Dr. Elliot. And for women, there are effects that are 
irreversible. If you start growing hair on your face that does 
not go away.
    Mr. Shays. Well, my first attention to this whole issue was 
when I saw the East German woman swimming team. And when I saw 
them perform, I thought I was seeing men compete against women. 
I remember the women, American women, were complaining at the 
time that they felt like they were--they were just in a whole 
different competition.
    Dr. Elliot. And it has come to light that they were giving 
these young women cycles of steroids and ratcheting up their 
muscle size and strength with each cycle of use.
    Mr. Shays. Is it also true that some of those women 
ultimately had continued that, in some cases against their 
will, in some cases, but had used it so long that they were not 
comfortable being women?
    Dr. Elliot. There is one case of a person who underwent a 
sex change. But it generally does not make you develop gender 
dysphoria or become a transsexual.
    Mr. Shays. OK. Well, just wanted the real information out 
here. Just the last issue then.
    Dr. Elliot. But let me say, I think your point that you 
have to be straight with kids is true. And the underground, if 
you tell them something, they will see right through it unless 
it is true, is right on.
    Mr. Shays. So, I mean, in some cases, the message might be, 
the problem with this is there is no need to take it. It is, it 
may be true that you could take a very moderate amount and not 
see harm, but it is the doorway to something that could lead to 
harm.
    Dr. Elliot. And a young man's testosterone level is going 
up every day during adolescence. They make their own 
testosterone. If they eat right and train right, they can get a 
lot bigger and stronger, they do not need to take steroids.
    Dr. Faigenbaum. I think the point that needs to be noted is 
that anabolic steroids need to be combined with a conditioning 
agent----
    Mr. Shays. I am going to have you slow down. I love your 
testimony, but I am--I have a process problem.
    Dr. Faigenbaum. Anabolic steroids need to be combined with 
a conditioning program for them to have this desired effect, 
this ripeness that maybe some females are looking for, or an 
increase in muscle mass. One cannot simply take anabolic 
steroids and expect to see these desired changes.
    I would argue that a 15-year-old girl who follows a 
reasonable exercise program, makes sensible modifications in 
her diet, with adequate sleep and such, will be a better 
athlete, or nonathlete than a 14 or 15-year-old who ingests 
anabolic steroids but does not participate in this well-
designed kind of program. I do not view them as a magic bullet.
    Mr. Shays. I heard Ms. White's testimony, Kelli White's 
testimony. I want to know what your reactions were when you 
heard her testimony.
    Dr. Yesalis. I agreed with your comment. It was a breath of 
fresh air, given the previous hearings that I have either been 
here or watched on television, as far as her candidness. So I 
thought that was nice.
    I was very glad she brought up the fact that she passed 17 
drug tests, even the so-called Olympic standard has giant 
loopholes in it. So I thought it was a very good thing that was 
brought in front of this committee.
    Dr. Elliot. There is a paradox. She says she is sorry she 
used them. But if I am 14 and I see her, I think she got--she 
was the fastest in the world from taking steroids. They work.
    Mr. Shays. Right. But, she was also good beforehand.
    Dr. Elliot. Absolutely. From age 10 she was a very gifted 
athlete.
    Mr. Shays. She did not take steroids then. So I have my new 
Cinderella movie. My new movie would be to see this young lady 
compete and show that she could compete without taking steroids 
and be very successful.
    Dr. Elliot. You know, in general, programs that have the 
recovered personal with an eating disorder come, make the 
problem worse. The kids get the message that is, you heard her 
say, lots of people were doing it. So they do not always hear 
the bad consequences. They hear, they feel invulnerable, they 
think OK, I am not as talented, and I better take them now.
    Mr. Shays. That gets me to the last point, that is the 
coaches and the trainers. If ever I would want to throw a book 
against anybody, it would be the trainers and the coaches that 
would encourage this, and the doctors maybe that encourage it.
    I would be eager to go after them every way I could. And 
yet they seem to be getting free passes here.
    Dr. Pope. I would strongly support you on that position. A 
coach or a trainer who very likely is aware of what is going on 
is exactly like a bartender serving alcohol to somebody that he 
knows is 17-years-old. That is precisely the same problem. It 
is a point that should be carefully controlled.
    Dr. Yesalis. The notion that elite coaches, whether they be 
in the MLB, or NBA, NFL, NCAA, do not know this is happening on 
specific individuals, these men and women who are supposed to 
be so smart to achieve these positions, can be so ignorant or 
stupid in this way baffles me totally. They darn well know what 
is going on.
    Mr. Shays. You see, I would almost have, you know instead 
of one strike and out, I would have no strike. I would have one 
strike and you are out.
    Dr. Yesalis. For a coach? I agree.
    Mr. Shays. Anybody want to make----
    Dr. Elliot. You know, there is really just a few elite 
coaches. Most kids' contact with coaches is not with a coach 
like Kelli White had, it is with the soccer coach who is also 
the science teacher.
    Mr. Shays. I guess when it comes to track and field, or 
skating where you have a personal coach, and they are 
encouraging it, I just find that relationship quite strong. At 
any rate, any comments you want to put on the record before we 
adjourn?
    Dr. Faigenbaum. In response to your comment on coaches, if 
an elite coach was to give a 22-year-old female an anabolic 
steroid, that is one issue. But if a coach was to give a 12-
year-old track and field star an anabolic steroid, I think that 
is another issue.
    Knowing the side effects and potential consequences of 
anabolic steroid use, I wonder if that borders on a kind of 
child abuse.
    Mr. Shays. Yeah. It is child abuse.
    It is. OK. Any other comment? This is a fascinating 
hearing. It is a subject that, courtesy of Major League 
Baseball, we have gotten into, because they were so arrogant, 
so obnoxious, so disingenuous, and frankly their testimony 
before us, in my judgment, was--almost bordered on perjury. So 
other than that, I think fondly of them.
    Dr. Elliot. Can I say that, I know that you want to 
harmonize random drug testing. But if there is a problem with 
Baseball, why don't you just have them get a blood test every 2 
weeks, if this is rampant there, and take it out of this random 
testing. Let us just bring them in every 2 weeks, like I would 
somebody in rehab. You do not get random tested there, you are 
given a test every week.
    Mr. Shays. Well, my response would be, once someone had 
broken, crossed that line I would do it, but I am not sure I 
would do it.
    But, you know what, we will think about it, won't we?
    Let me ask unanimous consent that the written testimony 
from the Center for Disease Control and Prevention regarding 
steroid use among females and the youth risk behaviors 
surveillance survey system be included in the official hearing 
record.
    Without objection so ordered.
    With that this hearing is adjourned.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]
    [Note.--The statement of the American College of 
Obstetricians and Gynecologists is on file with the committee.]
    [The prepared statement of Hon. Jon C. Porter and 
additional information submitted for the hearing record 
follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
